          REVIEW OF
 FEDERAL SYSTEMS INTEGRATION
AND MANAGEMENT CENTER (FEDSIM)
REPORT NUMBER A050078/T/5/Z06015
      SEPTEMBER 29, 2006
                                   REVIEW OF
                          FEDERAL SYSTEMS INTEGRATION
                         AND MANAGEMENT CENTER (FEDSIM)
                         REPORT NUMBER A050078/T/5/Z06015


                                   TABLE OF CONTENTS

                                                                                             Page

REPORT LETTER                                                                                 1

EXECUTIVE SUMMARY                                                                             2

INTRODUCTION                                                                                  4

     Background                                                                               4

     Objective, Scope and Methodology                                                         5

RESULTS OF AUDIT                                                                              7

     Findings and Recommendations                                                             7

             Finding 1–Internal Controls over the Contracting Practice                        7

             Finding 2–Business Practices For Providing Competition Among Highly Qualified
                       Vendors                                                                21


RECOMMENDATIONS                                                                               26

INTERNAL CONTROLS                                                                             27

APPENDICES                                                                                    28

     A. Summary of FEDSIM Audit Sample                                                        28

     B. Effects of Publishing Government Cost Estimate Information
                                                                                              32
     C. Description of Ranges Contained in FEDSIM Solicitations
                                                                                              35
     D. Management Response to Draft Report
                                                                                              39
     E. Auditor’s Analyses of Management Response
                                                                                              63
     F. Report Distribution
                                                                                              77
                           REVIEW OF
   FEDERAL SYSTEMS INTEGRATION AND MANAGEMENT CENTER (FEDSIM)
                 REPORT NUMBER A050078/T/5/Z06015


                               EXECUTIVE SUMMARY

Purpose

The audit objectives were to determine the following:

   •   Is FEDSIM obtaining competition among qualified vendors to meet customers’
       needs with reasonably priced IT solutions?

   •   Were the services acquired in accordance with the terms and conditions of the
       contract?

Background

The core business of the Information Technology (IT) Solutions business line is the
reselling of private sector solutions that are obtained through the award and
administration of contracts with the private sector. FEDSIM issues and manages task
and delivery orders against existing contracts, manages projects, and maintains a staff
of contracting and project management personnel.

FEDSIM’s revenues for fiscal year 2004 were $1.4 billion. Department of Defense
customers represent about 61 percent of FEDSIM’s business, with civilian agencies
accounting for the remainder. Task orders against the Millennia Government-wide
acquisition contract (GWAC) represent about 69 percent of FEDSIM’s business, on a
dollar basis. Orders for services represent the majority of FEDSIM’s business.

Results-in-Brief

While FEDSIM was generally complying with the Federal Acquisition Regulation, our
audit identified opportunities for improvement in task order management and increasing
price competition. Our review found that FEDSIM had implemented various controls to
improve the procurement process. For example, we noted that mandated solicitation
and task order checklists were in place and actively used. We found that contracting
files contained acquisition plans and market surveys, evidence of legal review,
Government cost estimates, price negotiation memoranda, and other required
documentation. GWAC awardees were provided a fair opportunity to bid on original
solicitations. Our review noted that the competition requirements of section 803 of
National Defense Authorization Act were consistently implemented.

However, FEDSIM’s management of task orders can be improved. We identified some
instances where the terms and conditions of the task order were not enforced. Problems

                                        2
with contractor invoicing, contractor travel, unexplained task order costs, and security
clearances were attributable to over-reliance on outside parties to supply information
and support. Technical and non-technical deliverables were not always available. The
effect was that some invoices were approved without adequate support, the
Government accepted sub-standard services, and in some cases did not receive all
services.

In addition, FEDSIM business practices can be improved to increase price competition.
FEDSIM publishes cost ranges derived from the Government cost estimate in its
solicitations as the expected ranges for the vendor’s cost proposals. Commonly, the
Government’s cost estimate (total dollars) was expressed as a fairly narrow range. Also,
FEDSIM often published the estimated level of effort (total hours to perform task) in
solicitations. Our analysis found that Millennia contractors were preparing their
proposals to meet the midpoint of the narrow range of estimates, which precluded
FEDSIM from obtaining a greater range of prices from preeminent IT service providers.
Millennia contractors are leaders in their fields and are capable of performing any task
within the scope of the contract. We believe that price competition among these vendors
can be improved, which could produce additional cost savings, considering the large
dollar value of many of the FEDSIM procurements.


Recommendations

We recommend that the Commissioner, FAS, direct FEDSIM management to improve
its management and results by a) having FEDSIM project managers proactively
manage task orders by conducting regular reviews of key requirements; b) instituting
quality control procedures necessary to improve fair opportunity, competition, and
planning in the procurement process; and c) examining and revising the FEDSIM
vendor solicitation and selection process to promote more price competition.

Management Response

The Commissioner, Federal Acquisition Service, agreed with recommendation numbers
one and two, but disagreed with recommendation number three. As a result of the
Commissioner’s concerns, we revised recommendation number three to better convey
our concerns with the use of information contained in Government cost estimates.




                                       3
                                REVIEW OF
         FEDERAL SYSTEMS INTEGRATION AND MANAGEMENT CENTER (FEDSIM)
                       REPORT NUMBER A050078/T/5/Z06015

                                      INTRODUCTION


Background

We initiated the review of GSA’s Federal Systems Integration and Management Center
(FEDSIM) as a result of the General Services Administration Office of Inspector
General’s Audit Plan for Fiscal Year 2005. FEDSIM falls within GSA’s Federal
Acquisition Service (FAS), Office of IT Solutions.

Responsibilities. The core business of FEDSIM is to provide its clients IT solutions by
contracting with private sector providers. FEDSIM’s mission is to provide total
information technology solutions that deliver value and innovation in support of its
clients’ missions worldwide through acquisition, project management, and
business/mission consulting services. Using a variety of contract vehicles such as
Millennia and Millennia Lite, FEDSIM strives to bring IT solutions to complex challenges
facing Government agencies today.

FEDSIM’s business strategy is to make clients successful at large complex projects.
This is especially important to clients requiring significant, dedicated post award
support. FEDSIM meets these needs by providing project management throughout
project life.

Authorities. FEDSIM, via a current delegation of authority, is authorized to procure and
supply information technology for the use of Federal agencies provided the contracts do
not exceed ten years. FEDSIM is also authorized to provide, acquire, and operate
information technology activities including telecommunications services to Government
agencies to satisfy their requirements.

Organization. FEDSIM is organized into two main divisions, Department of Defense
and Civilian. Within each sector are two subdivisions, Contracting and Project
Management, each serving specific areas (Army, Air Force, FDIC, etc.). FEDSIM
employed around 160 full-time employees at the time of our review.

Revenues. FEDSIM is a fully cost reimbursable provider of IT solutions to the Federal
Government. FEDSIM has a revenue structure comprised of two sources. The first
source of revenue is a 0.75 percent fee for each obligation of funds applied to a task
order. This fee is capped at $100,000 per obligation, which means that the fee applies
to all obligations up to $13,333,333.

The second source of FEDSIM’s revenue is hourly billing based on FEDSIM employee
grade level. Hourly billings occur over the entire term of a project and represent services

                                         4
provided by FEDSIM to client agencies such as awarding contracts, reviewing and
processing funding, processing modifications, assessing award fee determinations, and
reviewing and approving contractor invoices. Rates ranged from $112 (GS-7) to $175
(GS-15) per hour.

FEDSIM receives funds from Federal agencies for the contracts or task orders it awards
to private sector providers.1 During the time of our review, FEDSIM had 1,162
contracting actions representing contractual obligations of about $1.461 billion. FEDSIM
handled most of the actions itself; however, FEDSIM also had an agreement with the
Department of Interior, National Business Center, in Ft. Huachuca, Arizona to handle
some of the workload. In fiscal year 2005, Ft. Huachuca handled 933 contracting
actions for FEDSIM with a total value of over $178 million. At the time of our review, the
National Business Center charged 1.5 percent of the contract’s value for its contracting
services.

Types of Contracts Utilized. In awarding task orders to satisfy client agency
requirements, FEDSIM primarily used two contracting programs: (1) the Millennia
GWAC contract program; and (2) the FSS Schedule contract program. Below is a
breakdown of the value of task orders issued during fiscal year 2004:

        GWAC                                               $1,191,652,031               83.90%2
        FSS Schedule contracts                             $ 148,358,279                10.44%
        Open Market                                        $      264,440                 .02%
        Other                                              $ 80,044,385                  5.64%

FEDSIM provided data showing that 23 percent of contracting actions awarded from
October 2003 through March 2005 were firm fixed price. Of the 14 recent Millennia
awards contained in our sample, 11 were cost plus award fee and three were cost plus
fixed fee.

Objective, Scope and Methodology

The objectives of the FEDSIM review were twofold:

    1. Is FEDSIM obtaining competition among qualified vendors to meet customers’
       needs with reasonably priced IT solutions? and

    2. Were the services provided in accordance with the terms and conditions of the
       contract?




1
  FEDSIM (GSA) pays contractors as services are performed satisfactorily and then bills client agencies (earned
revenue).
2
  Millennia represented $975,488,597 of the GWAC total.

                                                  5
To accomplish these objectives:

   •   We obtained a master database of all FEDSIM contracting actions for the period
       October 1, 2003 through March 31, 2005 including modifications to existing
       contracts;
   •   We analyzed the Task Ordering System (TOS) used by FEDSIM as the contract
       file repository;
   •   We selected for review the 14 most-recently awarded task orders under the
       Millennia GWAC contract program (awarded October 1, 2003 through March 31,
       2005) and two task orders from our audit survey, with a total estimated value of
       $1.885 billion. The 16 task orders, ranging in value from $17.8 million to 341.7
       million, had an average estimated value of $117.8 million. The review of business
       practices (cost information included in solicitations) was limited to the 14 recently
       awarded Millennia task orders;
   •   To analyze billing processes, we performed a detailed review of a judgmental
       sample of 23 invoices associated with seven task orders;
   •   We reviewed a judgmental sample of five task orders for technical and non-
       technical deliverables, which included a review of security clearances;
   •   We reviewed acquisition plans associated with several task orders;
   •   We conducted a review of FEDSIM fee structures and billing practices;
   •   We analyzed Government cost estimates, cost information contained in the
       solicitations, and vendor cost proposals;
   •   We reviewed a judgmental sample of nine of the 16 task orders for quality of
       contract administration and project management; and
   •   We conducted ten visits to client, contractor and subcontractor sites in the
       Washington, DC metropolitan area.

We performed our audit work from December 2004 through September 2005. The audit
was conducted in accordance with generally accepted Government auditing standards.




                                         6
                                   RESULTS OF AUDIT

Findings and Recommendations

Finding 1 – Internal Controls over the Contracting Process

FEDSIM had implemented various controls to improve the procurement process. Fair
opportunity was provided to GWAC contractors and schedule holders, who were
apprised of contracting opportunities. However, FEDSIM’s management of task orders
(after point of award) needs to be improved. Problems with contractor invoicing,
contractor travel, unexplained task order costs, and security clearances were
attributable to over-reliance on outside parties to supply information and support.
Technical and non-technical deliverables were not always available. The effect was that
some invoices were approved without adequate support, the Government accepted
sub-standard services, and in some cases did not receive all services. We noted two
areas where acquisition procedures could be improved. These were acquisition
planning (one instance) and management controls over re-solicitations (two instances).

Internal Controls Governing FEDSIM Procurements

We assessed the internal controls governing FEDSIM’s procurements to provide
assurance that the procurements were made in accordance with the FAR and the terms
and conditions of the contracts utilized. Our review found that FEDSIM had
implemented various controls to improve the procurement process. For example, we
noted that mandated solicitation and task order checklists were in place and actively
used. We found that contracting files contained acquisition plans and market surveys,
evidence of legal review, Government cost estimates, price negotiation memoranda,
and other required documentation. GWAC awardees were provided a fair opportunity to
bid on original solicitations. Our review noted that the competition requirements of
section 803 of the National Defense Authorization Act were consistently implemented,
and the source selection process (technical evaluation) operated properly.

FEDSIM issued the solicitation to all Millennia contractors electronically. Often times,
there is a notice that FEDSIM received a response back from the contractors, either as
a bid on the project or a “no bid” form. We also noted during the survey work that
FEDSIM utilizes “e-buy” when making schedule orders for services. FEDSIM’s
procedure was to issue the solicitation to all contractors under the affected schedule or
special item number (SIN). FEDSIM was in compliance with Section 803 of the National
Defense Authorization Act.

Section M of the Millennia solicitations provided selection criteria. They were typically
Technical Approach, Management Approach, Key Personnel and Project Staffing
Approach, Past Performance, and, sometimes, included Service Level Agreements and
Performance Metrics. For each of the criteria contained in Section M, Section L
contained a detailed breakdown of specifics that appeared meaningful.



                                        7
The Price Negotiation Memoranda included limited discussion indicating that these
selection criteria were considered in relation to the proposal of the winning offeror.

FEDSIM’s Management of Task Orders

FEDSIM’s published “value-added differentiator” was their certified IT project
management professionals who support and manage a client’s project. FEDSIM’s core
business included project management throughout project life. This activity reflected the
requirements of FAR subpart 42.302, which provides, among several administrative
functions, that the contract administration office shall support the program offices
regarding program reviews, status, performance and problems. However, FEDSIM
personnel were not always effectively managing their assigned task orders and issuing
defined task objectives. As a result, contractor invoices were not always properly
supported or prepared in accordance with the contract terms, the Government
sometimes received substandard services, and some deliverables were not received. In
some cases, FEDSIM contractors did not provide reports or documents that were
required by the contract and controls over contractor travel were not enforced. In
addition, security clearances were not always provided for contractor and subcontractor
employees. The problems occurred due to an over-reliance on the client agency and
contractor for providing information and support, not devoting sufficient time to
determine how well certain aspects of the task were performed, and inattention to the
requirements of the task order.

Task Objectives

We found that the objectives of tasks were well defined, in some cases, and generalized
in others. Objectives were not well defined in five of the 14 task orders specifically
reviewed for this purpose. For example, we noted that for task GST0004AJM053 the
objectives and/or statement of work contained in Section C of the solicitation were very
generalized. Many statements indicated that the contractor would assess, support, or
monitor. This led us to conclude that the contract was more focused on obtaining a
workforce than on developing innovative solutions to specific information technology
challenges. The inclusion of a manpower matrix in the solicitation for GST0004AJM053
underscored this concern.

In contrast, we noted that the objectives and work statements in Section C of the
solicitations for tasks GST0004AJM060 and GST0004AJM061 were more tightly
defined. Included in these sections were support schedules, diagrams, and data and
metrics tables.     Additionally, contractor responsibilities included steps such as
maintaining an IT security plan with associated specifics spelled out. Better-defined
objectives are more conducive to the development of innovative solutions,
establishment of metrics (award fee, etc.), and assessment of task conclusion.




                                        8
Contractor Invoices

We performed a detailed review of 23 invoices associated with seven of the 16 task
orders reviewed. Our review identified problems with contractor invoices associated with
five task orders. Unexplained costs were found in the sample of invoices, especially for
subcontractor costs, and were not always prepared in accordance with task orders’
terms and conditions. Reviewing invoices was a primary responsibility of the contracting
officer’s representative (COR).3

Task order XXXXXXXXXXXXX had unsupported costs. Task order XXXXXXXXXXX
was awarded to a Millennia contractor on behalf of the xxxxxx xxxxxx xxxxxx xxx
xxxxxxxxxxxxx xxxxxxxxxxx xxxxxxx. It had an estimated value of $328,597,552. The
task order produced invoicing4 with unsupported costs. Documentation provided by the
contractor did not support all invoiced costs.

Subcontractors’ costs were not substantiated based on a review of the contract file.
FEDSIM personnel stated that a review was not their responsibility. FEDSIM relied on
the contractor’s “approved purchasing system”. However, GSA maintained responsibility
for determining the reasonableness of the invoices.

The audit team tested the contractor’s purchasing system. A software provider was a
subcontractor due to its familiarity with the xxxxx xxxxxxxxx xxxxxxxxxxx xxxxxxxxx,
which was based on the subcontractor’s commercial off the shelf software product
called xxxxxxxx. xxxxxxx procurement and financial management systems relied on the
subcontractor’s software. The contractor invoiced GSA for subcontractor hourly labor at
rates that were up to 121 percent higher than the contractor’s ceiling rates under the
Millennia contract, representing a potential annual overcharge of $1.48 million. The
invoicing was for work performed for xxxxxxx xxxxxxxxxxx xxxxxx xxxxxxxxxxx xxxxxxx
xxxxxx and showed, at a minimum, over $2.1 million in project costs. The following
represents a comparison between the invoiced rates, the contractor’s ceiling rates for
the period in question, and rates contained in the subcontractor’s current Federal
Supply Service schedule 70 contract.

                                 Invoiced to     Contractor’s      Percent over       Subcontractor’s
                                    GSA          Ceiling Rate        Ceiling          Schedule Rates
         Millennia Category          (a)              (b)               (c)                (d)
     Junior IT Analyst           $ 170.93         $116.86               46%
     Junior IT Analyst             163.19          116.86               40
     Subject Matter Expert         232.84          143.78               62           $144.34; $169.76
     Subject Matter Expert         221.37          143.78               54           $144.34; $169.76
     Journeyman IT Analyst         235.90          132.65               79               $153.35
     Apprentice IT Analyst         162.87          132.65               23
     Apprentice IT Analyst         154.85          132.65               17
     Technician                    105.52            59.31              80
     Technician                    131.26            59.31            121




3
    The COR was invariably the FEDSIM project manager.
4
    The invoicing reviewed represented voucher numbers CLIN1-13B; CLIN1-9 and CLIN6-15.

                                                  9
    a. The invoices reviewed for xxxx costs were CLIN (contract line item number) 13B,
       for services performed March 1 through April 30, 2005, and CLIN 1-9,
       representing services performed during November 2004.5 The rates represented
       the weighted average rate for all employees billed under the labor category
       during that period and included a xxxx percent general and administrative fee.

    b. The rates shown were the contractor’s Millennia ceiling rates for the period May
       1, 2004 through April 30, 2005. The contractor supported the invoiced labor rates
       with rates from an expired contract (xxxxxxxxxxxxx) whose labor categories did
       not map directly to the Millennia contract. Labor categories that the contractor
       attempted to link to the Millennia category “Subject Matter Expert”, for example,
       had hourly rates of $125 to $134 per hour; these rates were significantly lower
       than what was being currently invoiced to GSA. This indicated, if the information
       provided the audit team was current, accurate and complete, that the contractor
       was not billing at cost under a cost plus CLIN. However, a comparison to
       Millennia ceiling rates was used in the table since price negotiation memoranda
       we examined, in six of 14 instances, compared subcontractor rates to Millennia
       rates, in addition to other points of comparison.

    c. The amounts shown represent the degree amounts invoiced exceeded the
       contractor’s Millennia ceiling rates.

    d. For comparative purposes, we obtained a copy of the subcontractor’s current
       Federal Supply Service Information Technology Schedule Contract No.
       xxxxxxxxxxxx. This contract supported the subcontractor’s xxxxxxxx suite of
       products; xxxxxxx procurement and financial management systems relied on this
       software. We determined that, excepting Senior Project Directors, hourly labor
       rates ranged from $55.76 to $183.92.6 The subcontractor’s FSC Group 70
       contracts, including the contract forwarded to us by the prime contractor, did not
       directly map to the labor classifications contained in the Millennia contract. The
       rates shown for Subject Matter Expert ($144.34 to $169.76) represented the
       range for all expert categories, including functional expert, technical expert, and
       senior functional expert. For purposes of comparing grades only, we compared
       Journeyman IT Analyst to the subcontractor’s functional labor category Senior
       Systems Programmer, which commanded a rate of $153.35.


During our field visit, we asked contractor officials to substantiate their cost basis in the
subcontractor’s rates. The contractor supported its pricing with an expired contract7, a

5
  XXXX charges represented the majority of the subcontractor’s charges on the invoicing reviewed. The
subcontractor’s overall hourly rates (by labor category) charged on the referenced invoicing were very similar, if not
identical, to the rates shown in column (a) of the table.
6
  The current schedule contract states that the labor classifications can be used for all classes of service, which
includes the software used on the PSIP project. The rates shown covered the period January 1, 2004 through June
15, 2005.
7
  Working with the GSA Contracting Officer, we determined that the contract was a mandatory source Information
Technology Service Financial Management Systems Software contract that had expired on September 30, 1999.

                                                    10
document showing labor categories that did not map to the Millennia contract, and an
official price justification memorandum that supported an indirectly related, smaller, and
separately price fixed price CLIN. Therefore, we concluded that the contractor was not
billing at cost under a cost plus CLIN.

Task order XXXXXXXXXXXXX had over $4 million in other direct costs not
supported. Another subcontractor’s proposal consisted of a direct labor rate schedule
that was supported by selected invoicing for labor and travel costs from another
contract. The price negotiation memorandum addressed the direct labor rates proposed
by the subcontractor.

We reviewed invoice number xxxxxxxx and found that the contractor had charged the
task order $4,246,783.02 (cumulative) for other direct costs (ODCs) representing
“[subcontractor] Satellite Services”. The charges had no relationship to the direct labor
rates reviewed by GSA’s contracting officer.8

The basis for price reasonableness provided by the contractor was a comparison of the
subcontractor’s proposed monthly prices (by site and bandwidth required) to pricing on
a previous contract. While a comparison with historical procurement data is an
acceptable price analysis technique, it is not sound practice to rely on it in the absence
of competition. The contract with the subcontractor was sole source; the basis was the
subcontractor’s commitment to provide dependable services to the communications
industry and the subcontractor’s familiarity with the world-wide xxxxx network, hence
“no learning curve would be required.” The contractor concluded that prices were
reasonable based on a comparison of non-standard pricing in a non-competitive
situation.

FEDSIM contracting personnel could not provide information on over $4 million dollars
in satellite services being provided under the task order and referred us to the
contractor. The request for authorization to procure parts and tools (RAPP), provided by
the contractor to FEDSIM, simply referred to an open purchase order with the
subcontractor for satellite services. The RAPP did not justify the price quoted, nor did it
indicate that a procurement professional had reviewed the costs. The RAPP, in this
instance, essentially informed the contracting officer of the contractor’s intent to
subcontract. We concluded that the charges were not properly supported.

Subsequent to our audit work, the contractor’s approval of its contractor purchasing
system review (approved purchasing system) was formally rescinded by the Defense
Contract Management Agency on March 13, 2006. The contractor was granted its prior
approval on December 30, 1998. The administrative contracting officer stated that

Software products used on the xxxx project were added to this contract on July 18, 1997. This contract was under
FSC Group 70, as is the subcontractor’s current schedule contract. GSA’s Contracting Officer stated that all of the
software and services on the former contract migrated to the current schedule contract.
8
  The satellite services were contemplated in the task order as originally constituted. The Government’s estimate as
to the value of ODCs is typically provided in the solicitation. GSA’s contracting officer told us that the
subcontractor’s rates were approved at the time of award, which was documented in the PNM. However, the rates
reviewed by the contracting officer had no discernible relationship to the monthly fees for satellite service.

                                                    11
“These reviews are good for a 3-year period unless extended by the Administrative
Contracting Officer and I see no such extension in your file.” FAR 44.302(b) stated that
“Once an initial determination has been made under paragraph (a) of this section, at
least every three years the ACO shall determine whether a purchasing system review is
necessary.”

Inadequately prepared invoicing. We reviewed three task orders where the prime
contractor’s invoice preparation was inconsistent with the requirements of the task
order. We could not determine the basis for accepting some of the billed amounts.

For example, for GST0004AJM055, the contractor was not billing in accordance with the
task order which required certain information be provided on all invoices such as
employee name, company labor category, corresponding Millennia labor category and
the corresponding Millennia ceiling rate. The contractor billed at actual base labor rates
rather than a fully loaded rate9 on this $36 million task order. General and administrative
costs, fringe benefits, and overhead were billed lump sum. It was not possible to
compare the rates that were being invoiced to the contractor’s Millennia ceiling rates
since the Millennia rates represented fully loaded rates. Thus, there was no assurance
that the contractor was billing at the ceiling rate or less. The project manager accepted
and approved the invoices although the invoices did not provide the detail required by
the task order.

One subcontractor on this task order submitted a proposal with fully loaded labor rates
by labor classification but billed GSA at lump sum amounts totaling $1.09 million. A
second subcontractor was a Millennia contractor but billed GSA at lump sums totaling
$1.67 million. The detail required by the task order was necessary so that the approving
official could determine if the amounts billed were consistent with the terms and
conditions of the task order and the underlying Millennia contract. Without this detail, the
basis for accepting the invoices could not be determined. The project manager did not
have supporting documentation for the invoices.

A FEDSIM contracting officer’s representative (COR) designation letter stated that the
COR is responsible for “verifying and certifying that the items have been inspected and
meet the requirements of the contract.” This would include contractor invoices.

Task orders GST0005AJM066 and GST0004AJM061 also had similar invoicing
deficiencies. Refer to Appendix A, notes 14 and 9 for additional information.




9
 We reviewed invoice numbers 276071 and 286242. The Millennia contract defines fully loaded rates as the
contractor’s forward pricing rates, and includes such items as overhead, fringe, general and administration, or any
other elements of cost. The fully loaded rates are exclusive of profit or fee.

                                                    12
Metrics and Deliverables

We encountered problems with either technical or non-technical deliverables on four of
the five task orders where this review occurred. Technical and non-technical
deliverables were addressed during the field visits. Network management metrics were
a common item in task orders reviewed, since they lend themselves to objective
measurement, e.g., response times. In one instance, we noted that the required network
management metrics were not available due to a lack of necessary equipment. A
comprehensive electronic database report was also unavailable. Generally, however,
technical metrics we asked about were in place and procedures for producing the
deliverables on time existed.

Non-technical metrics were more problematic. Personnel security requirements were
not adhered to in three of the five tasks where this testing occurred during site visits to
contractors and subcontractors. Invoices were also inspected to ensure they were in
accordance with the contract and that the project managers had a reasonable basis for
acceptance. Three task orders had invoicing that did not provide a reasonable basis for
the acceptance of contractors’ or subcontractors’ costs.

One item that hindered progress assessments was deliverables that were poorly
defined in the task order. As an example, many objectives were not clearly defined and
often deliverables were listed with an expected due date that was the semantic
equivalent of “to be determined” (i.e. upon request, as agreed to, as required, etc.)
making it difficult to discern task progress. In one example (GST0004AJ0084), a task
order was lacking schedules, milestones, and due dates for deliverables. We had to
address deliverables based on the content of monthly status reports.

One indication of whether the intended project results were being obtained can be
observed from the Award Fee Evaluation Board findings for those tasks that were
awarded on a cost plus award fee basis. We reviewed these findings for tasks
GST0004AJM060 and GST0004AJM061, with mixed results. In the case of
GST0004AJM060, the award fee memo indicated that the contractor was denied any
award fee for the first rating period and that the contractor had underestimated the
scope of the assignment. In the case of GST0004AJM061, the contractor received an
overall rating of above average and earned approximately 85 percent of the award fee
for the period. These packages also provided qualitative assessments in specific areas
of contractor performance.

FEDSIM contractors were not able to produce some deliverables requested during our
field visits for four of the five task orders reviewed. The causes were, in part, due to a
deficient task order and a contractor having difficulty with an assigned task.

Task T0001AJM029. Task T0001AJM029 was awarded to a Millennia prime contractor
on behalf of the Department of State. The task order had an estimated value of $107
million. The client agency provided telecommunications service for all Government
activities conducted out of overseas diplomatic and consular establishments. Nine

                                        13
performance metrics identified in the task order could not be produced as required
output of the client agency’s Network Management Center. The task order had very few
deliverables that identified a specific output or product. Deliverables involving the
Network Management Center would be central to an organization providing
telecommunications services to overseas clients.

We determined, after working with the contractor’s help desk manager, that
performance metrics were missing because the Government-provided phone system
was inadequate and could not produce the desired data. The contractor could not
produce a program metrics report. This report dealt with, in part, network performance
data.

Task order GST0004AJM049. Task order GST0004AJM049 was awarded to a
Millennia contractor on behalf of the United States Agency for International
Development (USAID). The contractor could not produce a “Full IT Asset Inventory
Report”, which was due July 19, 200510. A subcontractor was in charge of warehousing
and asset management under the task order. The required reporting was very extensive
and covered USAID assets world-wide.

Subsequent to our field work, the FEDSIM project manager informed us that the award
fee determination plan contained a qualitative assessment goal entitled “Demonstrate
End-to-end control of IT Assets”. However, the lack of valid and reliable inventory
reports was cited as a source of concern in the summaries provided. The summary for
award fee period number three stated “At this time the reports they have don’t even
accurately report the data that is in the system or that was provided.” The specific report
and missed deadline were not mentioned in the summary data provided.11

See the report section starting on page 16 dealing with security clearances for
additional information on missing deliverables.

Contractor Travel

On one task order we reviewed for contractor travel costs, we found that controls could
have been improved. Adherence to controls already in place and a proactive approach
to managing contractor travel would have resulted in savings to the Government.

Task order GST0004AJ0084. Task order GST0004AJ0084 was awarded to a
Professional Engineering Schedule contractor12 on behalf of a DoD client agency. The
task order had an estimated value of $44,638,918. Travel expense was estimated to be
$1.49 million. It provided engineering expertise and support for F-35 fighter aircraft.


10
   The work breakdown structure dated August 12, 2005 showed that the project had a new deadline of September
15, 2005 (start date July 19, 2005).
11
   The summary document provided by FEDSIM’s project manager was entitled “Asset Management Comments
from the Award Fee Board Reports.”
12
   The contractor has supported the client agency in their current capacity since 1994.

                                                  14
We visited the contractor’s offices to examine supporting detail for twelve trips taken by
its personnel. The task order provides “All requests for travel and ODCs must be
approved by the FEDSIM Program Manager (PM) prior to incurring costs.” It was
reiterated in the contractor’s Project Management Plan.

Controls over contractor travel were bypassed. Four of the twelve trips were approved
after the trip had occurred.13 The project manager was receiving a trip report and a copy
of an approval document14 after the travel had occurred. The contractor told us
procedures were changed due to the high number of last minute travel requests.

Other approval documents provided were vague and contained questionable costs, as
explained below.

Generally, we found almost no evidence to support the contention that much travel was
“last minute”. A sample of five trips to Dallas/Fort Worth (all out of Washington Dulles)
found airfares of $277, $396, $867, $1146, and $1734. All but one, was purchased at
least one month in advance. We noted two separate trips to Dallas/Fort Worth that
included Sunday travel, a non-stop leg, with scheduling at least a month in advance;
however, the fares were $277 and $1146. The task order required that “Airfare will be
reimbursed for actual common carrier fares, which are obtained by the most reasonable
and economical means.”

Other costs associated with travel. We found that travel was assessed a xxxx
percent general and administrative fee. The task order states “Costs incurred shall be
burdened with the contractor’s indirect handling rate as entered in their GSA
schedule….” The task order further states “If no rate is specified in the schedule, no
indirect rates shall be applied to or reimbursed on such costs.” The contractor was
unable to show us contractual support for the rate.

The quality assurance surveillance plan states that “the COR may periodically request a
review of travel vouchers by an independent party to ensure that the Government Travel
Regulations are being followed. Such review will occur at least annually.” We could not
establish that a review occurred in the past.

Re-Competing Amended Solicitations

Millennia contractors received fair opportunity to bid on original solicitations. However,
in two of the 14 recent Millennia task orders included in our sample (14 percent),
FEDSIM contracting officers chose not to re-solicit to all Millennia contractors after
materially amending the requirement or reviewing a technical proposal that was
unsatisfactory.



13
   The back-up documentation for several trips contained the statement “In accordance with AI-ES’s new contract
supporting the JPO, prior ‘written’ approval (email concurrence is fine) is required for travel.”
14
   This invariably took the form of email traffic between the client agency’s approving official and the requestor.

                                                    15
One example presented a significant15 scope decrease after the solicitation was due;
however the contracting officer only resubmitted the new solicitation to the two Millennia
contractors that originally submitted proposals. FAR 15.206(e) requires that if:

        ….an amendment proposed for issuance after offers have been received
        is so substantial as to exceed what prospective offerors reasonably could
        have anticipated, so that additional sources likely would have submitted
        offers had the substance of the amendment been known to them, the
        contracting officer shall cancel the original solicitation and issue a new
        one, regardless of the stage of the acquisition.

The contracting officer agreed that the Government should have sent the                                      new
solicitation to all Millennia contractors to ensure a fair opportunity to bid on the                         new
statement of work. We also noted that the technical proposal received from the                               sole
(incumbent) bidder on task order GST0005AJM062 was materially deficient. The                                 task
order would have benefited from re-solicitation.

We looked at several acquisition plans and identified one plan that was of limited value
to intended users.

The limited acquisition plan associated with task order GST0004AJ0084 was not
satisfactory because it did not fully delineate the acquisition’s history. The acquisition
plan did not note that the subcontractor currently performing the task had provided
continuous customer support since 1994 on the then-current and predecessor
contracts.16 To reinforce this point, the subcontractor claimed, during technical
evaluation, that certain contract risks were mitigated because they could provide
uninterrupted execution following award. The effect was that meaningful discussion of
the impact of prior acquisitions on feasible acquisition alternatives could not have
occurred, based on the acquisition plan’s contents. The solicitation received two bids,
including the subcontractor’s (who eventually won the award).

FAR 7.103(l) (FAR subpart 7.1 – Acquisition Plans)17 states that the agency head shall
prescribe procedures for assuring that the contracting officer, prior to contracting,
reviews the acquisition history of the supplies and services. The General Services
Administration Acquisition Manual reiterates this responsibility under subpart
507.103(c)(4)(i). Accordingly, GSA Order OGP 2800.1 (paragraph 12(b)(1)) specifically
references limited acquisition plans and states that plan content should include
“Acquisition background and objectives, including a statement of need, applicable
conditions, cost, capability or performance, and delivery or performance-period
requirements. (See FAR 7.105(a)(1)-(5).” FAR 7.105(a)(1) states that the acquisition

15
   The original proposal under GST0004AJM053 xxxxxx xxx xxxxxxx xxxxx xxxxxxxxx xxxxxxxx xxxxxxxxxxx
and the amended task called for a reduced man-hour total of xxxxxxx xxxxxx xxxxxxxxx and a reduced total value
of xxxxxxxxxxx xxxxxx xxxxxxxxx The decreased solicitation was due to client agency funding issues.
16
   We confirmed the prior contracts with a representative of the xxxx xxxx.
17
   Nothing in FAR 7.103 limits the discussion to just comprehensive acquisition plans or just limited acquisition
plans.

                                                   16
background and objectives shall “Summarize the technical and contractual history of the
acquisition. Discuss feasible acquisition alternatives, the impact of prior acquisitions on
those alternatives, and any related in-house effort.”

Security Clearances

Our review identified problems with the furnishing of security clearances for three of five
task orders tested for this contract deliverable. Some of the problems were severe; we
concluded, in one instance, that the security environment required by the task order was
not in place. The results of our audit tests are summarized in the following chart:

                                  Agency /                                            Not         Percent
            T.O.                 Contractor            Personnel      Cleared       Cleared         not
                                                                                                  Cleared
     GST0004AJM049            USAID / Prime                53             26           27           51%
                              Contractor18
     GST0004AJM058            Army / Prime                 23             18            5           22%
                              Contractor
     GST0005AJM066            DoD / Prime &                62             49           13           21%
                              Subcontractor
     GST0004AJ0084            DoD / Prime                No security clearance problems were
                              Contractor                 identified in the audit sample that was
                                                                          tested.
     GST0001AJM029            State Dept. /              No security clearance problems were
                              Prime                      identified in the audit sample that was
                              Contractor                                  tested.

Security clearances not produced. Task order GST0004AJM049 was awarded to a
Millennia contractor on November 10, 2003, on behalf of the United States Agency for
International Development (USAID). The task order had an estimated value of
$328,597,552. The requirements of section H.8.1 “Security Requirements” and the
governing DD Form 254 “Contract Security Classification Specification” were not met.

The task order required that personnel working in the Ronald Reagan Building or
Beltsville Information Management Center possess a secret or top secret clearance.
Interim clearances were accepted. As a minimum, a limited investigation (Employment
Authorization) and favorable adjudication by USAID/SEC19 was required. The contractor
was responsible for ensuring subcontractor compliance.




18
   There were an additional 57 subcontractor employees on this task for whom no security information was provided
to the audit team.
19
   We understood this to mean USAID’s Office of Security.

                                                  17
The DD Form 254 provided for the following:

        As a reminder, ADS 567.3.3 prohibits employment on an AID contract until
        the prerequisite investigation has been completed and a
        clearance/authorization awarded by the competent authority.

In our sample of 53 personnel, the contractor’s Facility Security Officer (FSO) could not
produce clearances or adjudicated employee work authorizations in 27 instances (51
percent).

Clearance/authorization information for the entire staffs of some subcontractors were
not provided. This added an additional 57 employees whose security credentials were in
question and included personnel working in the Beltsville Information Management
Center. The contractor’s FSO was unaware of some contractors.

The contractor’s project manager, when questioned about six of the employees, stated
that authorizations were not required because the employees did not access USAID
buildings, systems or networks. Section H.8.1.1 of the task order, however, requires:

        The USAID program manager and FEDSIM COR may choose to permit
        contractors (U.S. citizens)20 not requiring access to USAID space or
        access to National Security Information to perform on this contract.
        However, a limited investigation (Employment Authorization) and
        favorable adjudication of these contractors by USAID/SEC is required
        before these individuals are permitted to perform under the terms of this
        contract. The provisions of ADS 576.3.321 apply in these circumstances.
        The designated CTO should refer to the supplemental guidance attached
        to the Contract Security Classification Specification, DD Form 254 for
        processing instructions.

We saw no evidence that any Employment Authorizations had been issued for these
individuals. Therefore, we were concerned as to a) whether the contractor was
forwarding Visit Authorization Requests to USAID security personnel; b) the basis on
which personnel were issued USAID building passes; and c) the amount of clearance
information provided the USAID Office of Security, especially paperwork necessary to
process Employment Authorizations, all of which were task order requirements.

We asked the GSA Contracting Officer to have the contractor provide the information.
The contractor provided only copies of DD Forms 254. The submission was incomplete
when compared to the list of subcontractors contained in the current project
management plan.



20
  The task order has been modified to include non-U.S. citizens.
21
  The task order is in error: the DD Form 254 references ADS 567.3.3, not 576.3.3. ADS 567.3.3 can be provided
upon request.

                                                  18
The GSA Contracting Officer said that additional information was not available and that
the issue was being addressed with both client and contractor.

Subcontractor was not maintaining clearances. Task order GST0005AJM066 was
awarded to a Millennia prime contractor on January 5, 2005 on behalf of a DoD
agency. The task order had an estimated value of $17,807,442.22 The contractor and
one subcontractor could not produce security clearances for several personnel. The
task order required the contractor to pursue and obtain secret clearances for all
personnel, including subcontractors.

We met with the subcontractor on August 12, 2005 (about 8 months into the
approximately one year task order). Subcontractor officials could not produce
clearances for ten of 30 personnel. Four employees had just initiated the required
paperwork on August 8, 2005.23 Four employees had not been granted interim
clearances. One person had his clearance denied. A subcontractor employee with
management authority in “System Engineering”24 and assigned to the Global Command
and Control System (GCCS)25 did not have a valid clearance. The DD 254 required a
top-secret clearance for contractor personnel working in the GCCS and intelligence
networks.

Contractor officials could not produce required clearances for three of 32 of its own
personnel. The security clearance summary provided by the contractor did not contain
the names of four employees listed on a recent invoice. This led us to question whether
the agency’s security manager was provided current and accurate information. The DD
254 required the contractor to establish and maintain an access list of all employees
working under the task order. The client agency’s security manager told us he was not
receiving an access list. However, he described processes in place for allowing
contractor personnel into his agency’s facilities.

Not adhering to security procedures led to problems. Task order GST0004AJM058
was awarded to a Millennia contractor on behalf of the United States Army. The task
order had an estimated value of $151,190,206.

The security requirements contained in the task order were not met.26 The agency’s
security manager did not always receive, or independently verify contractor information.
This resulted in several contractor personnel not having the requisite clearances.


22
   For more information on task order details, refer to Appendix A, note 14.
23
   Subcontractor officials provided us with an email, dated August 4, 2005, which provided instructions to these
employees on how to complete the necessary paperwork, dated just after the audit staff left the prime contractor’s
facilities on August 4, 2005 after requesting permission to visit the subcontractor.
24
   Per the contractor’s Project Management Plan dated January 13, 2005.
25
   Per detailed subtask spreadsheets provided to us by contractor officials during our field visit of August 4, 2005.
26
   The security clearance requirements are contained in section H.8.1 of the task order, the DD Form 254 “Contract
Security Classification Specification”, and attachment “N” to the task order entitled “Personnel Security Plan”. The
investigative requirements are (depending on position) either a Special Security Background Investigation or a
Defense National Agency Check with Written Inquiries.

                                                    19
The task order requires the contractor’s field security officer to provide the client agency
with a visit authorization letter when personnel are hired. A sample letter with required
security fields was provided in the task order. The agency’s security manager would
verify the information contained in the visit authorization letter. The contracting officer’s
technical representative then approved or rejected the letter.

The system did not work. Of our sample of 23 contractor and subcontractor personnel,
12 employees did not have sufficient information on file to determine if a clearance or
background investigation existed. The problems ranged from no independent
verification of clearances to no paperwork at all. We enlisted the assistance of the
contractor’s security manager, and concluded that five individuals did not have
clearances. Additionally, many of the visit authorization letters either did not exist, were
expired, or referenced the wrong contract number.27

The contractor attempted to “grandfather” existing visit authorizations into the current
contract; the result was that the agency’s security manager did not have updated or
complete security information. When coupled with lack of access to the Joint Personnel
Adjudication System, it limited his ability to verify the information.

FEDSIM officials implied that it was not GSA’s responsibility to ensure adequate
clearances. However, we believe GSA’s responsibilities in awarding and administering
the task orders’ requirements include working with the appropriate parties to ensure
adequate clearances.

Executive Order 12829 (January 6, 1993) entitled “National Industrial Security Program”
establishes a program to safeguard Federal Government classified information that is
released to contractors, licensees, and grantees of the United States Government. The
National Industrial Security Program Operating Manual (NISPOM) incorporates the
requirements of the Executive Order.28 Section 1-104(b) of NISPOM states the
following:

        The designation of a CSO [Cognizant Security Offices] does not relieve any
        Government Contracting Activity (GCA) of the responsibility to protect and
        safeguard the classified information necessary for its classified contracts, or from
        visiting the contractor to review the security aspects of such contracts.

Section C1.3.1.3 of the Industrial Security Regulation (DoD 5220-R) corroborates this
requirement and states that any deviation from the security requirements of NISPOM or
the contract should be referred promptly to the Cognizant Security Offices.



27
   Instead of relying on the visit authorization letters prescribed in the task order, reliance was placed on a
spreadsheet entitled “TIS Verification of Contractor’s Background/Clearance Status” (July 19, 2005). This
spreadsheet referenced a GSA schedule contract number instead of the current contract number and, in place of
specific dates of visit, had the notation “Annual VAL Renewal” for all employees.
28
   Preceding paragraph per FAR subpart 4.402(a) and (b).

                                                    20
GSA should work with the Defense Security Service, Directorate for Industrial Security,
to determine the appropriate guidance in this area.

Cause of Task Order Management Problems

The principal cause of the task order management problems was excessive reliance on
outside parties for providing information. For example, FEDSIM placed reliance on a
contractor’s approved purchasing system instead of taking a proactive approach and
asking questions about invoiced charges that were easily discernible from even a
cursory review. In another instance, FEDSIM officials, when discussing inadequately
prepared invoicing under task order GST0004AJM055, stated that a DoD organization
would eventually perform a contract close-out and the problem would be resolved. It is
FEDSIM’s responsibility to ensure that there is a reasonable basis for accepting and
paying invoices. FEDSIM personnel also indicated that security clearance reviews were
not their purview; this was the role and responsibility of another DoD organization. It is
the responsibility of FEDSIM’s contracting officers to ensure that the requirements of its
task orders are fully complied with.

Finding 2 – Business Practices For Providing Competition Among Highly
Qualified Vendors

FEDSIM’s business practices can be improved to increase price competition. While we
did find that FEDSIM generally provides fair notice and opportunity for all qualified
vendors to bid on each project, FEDSIM publishes in the solicitation a Government-
prepared narrow cost range for the scope of work, within which contractors are
encouraged to bid. The solicitations state that any vendor submitting bids outside of the
range must explain the difference in writing. Individual vendor prices varied less than
three percent from the midpoint for the majority of the 28 proposals reviewed
(representing 14 task orders).

FEDSIM officials stated that they used a best value approach which prioritized the best
vendor solution for the project, with price a less important priority. However, we noted
that the Millennia GWAC contract program, which constitutes the majority of FEDSIM’s
contract awards and from which 15 task orders in our sample were awarded, provides
world class industry leaders that are all premier providers of IT solutions and are
capable of performing any task within the scope of the contract. Although FEDSIM’s
approach of publishing narrow cost ranges for vendor proposals is not prohibited by
regulation, we believe that it limited the benefits of price competition among proposals
submitted by Millennia contractors.

The Millennia contract program is not a highly competitive arena. The Millennia
solicitations we reviewed received an average of about two proposals each and 38
percent received only one proposal. This small number of proposals limits comparison
of alternative solutions and pricing, especially when considering the narrow cost range
specified in FEDSIM’s solicitations, and dictates the need for additional actions to
improve competition.

                                        21
FEDSIM’s Procurement Approach

FEDSIM Utilizes Cost Ranges in Solicitations. FEDSIM issued a standard solicitation
to all Millennia partners. FEDSIM’s standard business practice was to establish a cost
range for the project generally based on the Government estimate, less 10 percent for
the solicitations we reviewed. Vendors were encouraged to submit proposals within the
noted range for any given task. However, this range may be overly narrow given the
large estimated values of FEDSIM’s projects. The average estimated value of the
solicitations shown in Appendix C was over $107 million. On average, this equates to a
published range of only $10.7 million based on a solicitation value of $107 million for 85
percent (12 of 14) of the solicitations included in Appendix C. See Appendix C for a
detailed description of the cost ranges contained in 14 solicitations we reviewed. We
further noted that in 28 proposals reviewed covering 14 task orders, in 20 of the
proposals (about 70 percent) the actual difference in price proposals only varied six
percent, thus achieving only a six to seven million dollar difference between vendors on
a procurement valued at $107 million. FEDSIM officials stated that they focus on a
“best value” approach that prioritizes the technical solution over price, which is not
prohibited by statute or regulation.

FEDSIM officials told us that the focus on technical approach and use of cost ranges
helps to streamline proposal evaluations and tends to limit the number of non-
responsive bids. However, we noted that each of these bidders was qualified by virtue
of being a GWAC awardee. The officials also stated that vendors were allowed to bid
outside of the ranges. Section M.229 stated that any vendor submitting out of this range
must provide a written explanation as to the reason for the difference. We found that
FEDSIM’s published estimates drive the contractors’ proposals. We found only one
proposal (out of 28 reviewed) that fell outside of the solicitation’s range.

FEDSIM officials told us that ten percent has been historically used for the ranges, but
they were unsure of the origin of the practice. We also noted that some of the ranges
included amounts as high as ten percent above the estimates. We could not determine
why cost ranges would provide for bids higher than the Government estimate.

FEDSIM’s standard solicitation makes it clear to potential vendors that price is not a
paramount factor in making awards. Section M.130 addresses exactly how proposals
would be awarded with more details provided in further sections. M.1 states:

           The Government anticipates awarding a task order to the offeror whose
           proposal is the most advantageous to the Government, price and other
           factors considered. Technical proposals will be evaluated based on the
           factor criteria, described in Section M.3. Technical merit is more important
           than cost. Award may be made to other than the lowest priced technically
           acceptable proposal.


29
     Section M is listed as “Evaluation Factors”.
30
     Section M.1 is listed as “Method of Award”.

                                                    22
Section M.231, in addition to requiring justification for proposals falling outside the
published dollar range, states that price will be considered by the contracting officer for
reasonableness. Section M.332 went into great detail about how awards would be
evaluated for technical merit. An example from section M.3 follows:

         The Government will evaluate technical proposals based on the factors
         shown below:

         Factor 1:         Technical Approach
         Factor 2:         Management Approach
         Factor 3:         Service Level Agreements and Performance Metrics
         Factor 4:         Key Personnel and Project Staffing Approach
         Factor 5:         Past Performance

         The overall quality of the technical proposal and its ability to best meet the
         Government's requirements are most important. The factors are listed in
         descending order of importance with Factors 1, 2, and 3 being of equal
         importance and Factor 4 being more important than Factor 5.

Published Estimates Drive Millennia Contractor Proposals

Published cost ranges and hours drove Millennia contractor proposals. Contractors
consistently adhered to the published costs and hour estimates, which narrowed the
range of their proposals. While driving contractor proposals into a narrow range may
facilitate comparison and the expeditious award of Millennia task orders, it acts to limit
opportunities for cost savings.

We reviewed 28 proposals submitted by Millennia contractors in response to 14
FEDSIM solicitations. Millennia prime contractors are leaders in their fields and have the
ability to deploy products and services worldwide. The contractors have expertise in
software engineering, communications and systems integration. Contractor proposals
closely replicated published information with 27 of the 28 proposals we analyzed falling
within the published cost range. The proposals were also consistent with the underlying
independent Government estimates developed by FEDSIM. Further, the cost proposals
trended strongly to just below the midpoint33 of the published cost range, with an overall
statistical standard deviation from this point of less




31
   Section M.2 is listed as “Cost/Price Evaluation”.
32
   Section M.3 is listed as “Technical Evaluation Criteria”.
33
   The dominant proposal trend was to the 49% mark of the cost range published in FEDSIM’s solicitation (i.e. if
the published range is 0 – 100, this would be 49). For simplicity sake, we will refer to this simply as the midpoint
of the cost range for the remainder of this report.

                                                    23
than three percent. In other words, about 68 percent of Millennia cost proposals fall
within six percent of the midpoint of the published cost range.34 These proposals were
for tasks with total procurement values ranging from approximately $17 million to $341
million.

Appendix B shows in detail how closely Millennia contractors approximated the midpoint
of FEDSIM’s published cost range in their proposals.

Level of effort (LOE). FEDSIM also included the LOE in six of the 14 solicitations
reviewed. When FEDSIM included the Government estimate for LOE in Section L of the
solicitation, contractor proposals replicated this LOE hour figure with an overall standard
deviation of 5.6 percent from the LOE. In contrast, when no information regarding LOE
was included in the FEDSIM solicitation, the range of LOE in contractor proposals
expanded significantly. This was reflected by a standard deviation of proposal LOE that
more than doubled to 14.6 percent. All the proposals contained more hours than the
independent Government-estimated LOE (which was not provided). Providing the LOE
further contributes to driving vendor proposals into a narrow range of hours which could
impact innovative approaches requiring different numbers of hours.

The proposals exceeded the independent Government estimate by an average of
almost 20 percent, with the largest deviation being over 45 percent. We do not know if
not publishing the level of effort resulted in savings or extra costs to the Government
because, despite the large disparity of proposal LOE from the underlying, unpublished
independent Government estimate, these contractor proposals still met the published
cost midrange with the consistency noted above. It should also be noted that FEDSIM
separately publishes specific estimated costs for long distance travel, tools, and ODCs
in Section B of the solicitations. This practice enables a discerning reader to couple this
information with that in Section L and break out labor costs. Labor costs can be divided
by the level of effort (the level of effort is not always published) to estimate the
Government’s expected average labor rate.

Published estimates may increase costs. We identified one example where Millennia
contractors adjusted average wage rates downward to meet the midrange of the revised
published cost estimate. The revised solicitation did not require a less costly or less
skilled labor mix; however, the Millennia contractors reduced average wage rates
between seven and eight percent. This was accomplished while proposing LOE virtually
identical to that contained in the solicitation. If this wage reduction had occurred in the
original proposals, the Government would have saved three million dollars.

The influence of published estimates is demonstrated by a material error contained in
the original solicitation for task order GST0004AJM053. The solicitation accurately
reflected the cost from the Government estimate but mistakenly understated LOE by

34
  Standard deviation is a statistic that measures how tightly various samples are clustered around the mean (in our
case, midpoint) in a set of data. One standard deviation away from the mean in either direction accounts for
approximately 68 percent of the samples in a group. In our example, 68 percent of the proposals were within 2.8
percent of the Government estimate’s midpoint.

                                                    24
almost 40,000 hours. Two Millennia prime contractors submitted proposals in response
to this solicitation. Despite the large error in the solicitation, both contractor proposals
received for this task were within two percent of the midpoint of the published cost
range and within 1 percent of published LOE.

This solicitation was subsequently amended and reissued due to a client driven scope
reduction. The amended solicitation no longer contained the material error. The same
two Millennia contractors again submitted proposals. Vendor 1’s cost proposal was
within one percent and Vendor 2’s proposal was within 4.8 percent of the midrange cost
published in the solicitation. Despite the large shift in estimated hours due to the
removal of the material error, LOE in both Millennia contractor proposals was virtually
identical to the published LOE. This consistency could only be accomplished by a
significant decrease in the overall average labor rates in the proposals.

The table below displays the impact of this LOE change to the average labor rate in the
two Millennia contractors’ proposals. The table includes average labor rates taken
directly from independent Government cost estimates that underlie the information
published in the solicitations.

Since this amended solicitation represented a straight scope reduction, and not a shift in
labor mix among critical performance areas, we would expect little variance in the
average labor rates between the contractors’ initial and amended proposals. This
expectation was corroborated by the small change in average labor rates in the
underlying independent Government cost estimates. The table below shows our
analysis:

                                                                         % Reduction
                                          Original        Amended           from
               Component                 Solicitation    Solicitation      Original

     Government Estimate of Cost          $45.44 M         $31.47 M
     Midpoint of Cost Estimate
     published in Solicitation            $42.14 M         $29.3 M

     Government Estimated LOE             419,680          291,400

     LOE Published in Solicitation        380,000*         291,400
     Average Wage Rate
     of Vendor 1 Proposals                $110.12          $102.14            7.3%
     Average Wage Rate
     of Vendor 2 Proposals                $105.58           $97.41           7.7%
     Average wage rate from
     Government cost estimate             $104.94          $103.23           1.6%




                                         25
        * (76,000 hours x 5 years) – The solicitation represented LOE as 76,000 hours
        annually and the period-of-performance of the task was five years.35

As shown in the table, the average rates in both vendors’ amended proposals dropped
by a significant amount (between seven and eight percent). The contractors’ average
labor rate reduction was accomplished by shifting proposed hours into less skilled and
less senior labor categories.

If a less skilled and less costly labor mix was deemed able to render satisfactory
performance on this task, we would have expected them to be proposed in response to
the initial solicitation, thus reducing overall cost to the Government for the same
effective solution. Since they were not, we are left to conclude that the labor categories
proposed for these task orders were an attempt to meet published cost estimates. In
this case, if the average labor rate in Vendor 1’s initial proposal had matched the
reduction of 7.3 percent in its amended proposal, its initial proposal cost would have
been reduced by three million dollars. Vendor 2, with an average rate reduction of 7.7
percent, would have produced an initial proposal reduced in cost by over three million
dollars.

We would expect highly qualified vendors to propose innovative solutions that include
an appropriate labor mix predicated on an analysis of the task to be performed, not on
the advertised budget. The preceding shows that Millennia contractors are intent on
meeting the advertised cost and labor estimates instead of producing independent
estimates. Given the narrow ranges being used, the large dollar value of the projects
and the potential for increased price competition, opportunities for further savings exist if
contractors produce independent proposals.

Recommendation

We recommend that the Acting Commissioner of FAS:

             1. Evaluate FEDSIM project managers’ performance in a manner that
                encourages proactive management of task orders and involves regular
                reviews of key task order requirements and invoices to ensure they are in
                accordance with the terms and conditions of the contracts;
             2. Instruct FEDSIM management to continue to develop and implement
                controls and procedures in order to: (a) attract more proposals to its
                solicitations; (b) ensure that all GWAC contractors receive a fair
                opportunity to be considered for task orders that have been materially
                revised or otherwise impaired; and (c) ensure that acquisition plans
                contain all required information; and

35
   This error occurred because the original Government estimate included another partial year in the period-of-
performance (total period-of-performance ~5 ½ years). Costs for this partial year were carried through to the
solicitation whereas LOE was not because the preparer used an hours-per-year format and represented the period-of-
performance of task as only being 5 years.


                                                  26
          3. Analyze the FEDSIM vendor solicitation and selection process, and basis
             and approach for setting published cost ranges and levels of effort in the
             solicitation, to promote opportunities for further cost savings.

Management Response

The Commissioner, Federal Acquisition Service agreed with recommendation numbers
one and two, but disagreed with recommendation number three. The Commissioner’s
response to the draft audit report can be found in Appendix D. As a result of the
Commissioner’s concerns, we revised recommendation number three to better convey
our concerns.

Internal Controls

We assessed the internal controls governing FEDSIM’s procurements to provide
assurance that the procurements were made in accordance with the FAR and the terms
and conditions of the contracts utilized. Our review found that FEDSIM had
implemented various controls to improve the procurement process. For example, we
noted that mandated solicitation and task order checklists were in place and actively
used. We found that contracting files contained acquisition plans and market surveys,
evidence of legal review, Government cost estimates, price negotiation memoranda,
and other required documentation. GWAC awardees were provided a fair opportunity to
bid on original solicitations. Our review noted that the requirements of section 803 of the
National Defense Authorization Act were consistently implemented.

However, controls over contract administration activities need to be improved. Our
review noted that contactors were not always complying with the personnel security,
invoicing, or long distance travel requirements of the task orders reviewed. We noted
the existence of unexplained and excessive costs on invoices reviewed. The problems
in this area were the direct result of relying on outside parties to provide information.

We found that the control structure over FEDSIM’s procurements could be improved. In
a two instances, fair opportunity was not provided GWAC awardees when events
occurring after the issuance of the original solicitation required re-solicitation. In one
instance, an acquisition plan did not contain the required information.




                                        27
                                                                                                  APPENDIX A

                                        REVIEW OF
                FEDERAL SYSTEMS INTEGRATION AND MANAGEMENT CENTER (FEDSIM)
                            REPORT NUMBER A050078/T/5/Z06015

                                    SUMMARY OF FEDSIM AUDIT SAMPLE

                               Date of         Estimated                                          Contract
         Task Order            Award                  36          Client Agency           Notes   Vehicle
                                                Value

    xxxxxxxxxxxxx            11/10/2003      xxxxxxxxxxxx              xxxxx                1     Millennia
   GST0004AJM050             12/18/2003      $100,696,734              GAO                 2      Millennia
   GST0004AJM053             12/22/2003       $30,776,442               DoD                3      Millennia
   GST0004AJM055              3/29/2004       $36,102,564               DoD                4      Millennia
   GST0004AJM056              4/12/2004      $337,564,048              DHS                 5      Millennia
   GST0004AJM057              1/10/2005       $94,539,687               DoD                6      Millennia
   GST0004AJM058              4/30/2004      $151,190,207               DoD                7      Millennia
   GST0004AJM060              6/15/2004       $22,584,908               DoD                8      Millennia
   GST0004AJM061              9/20/2004      $341,741,035              FDIC                9      Millennia
   GST0005AJM062              2/15/2005       $79,214,226               DoD                10     Millennia
   GST0004AJM063              8/31/2004       $86,671,436               DoD                11     Millennia
   GST0005AJM064             11/29/2004       $18,178,365               DoD                12     Millennia
   GST0005AJM065              2/17/2005       $86,493,731               DoD                13     Millennia
   GST0005AJM066               1/5/2005       $17,807,442               DoD                14     Millennia
   GST0001AJM029              8/1/2001       $107,541,025             STATE                15     Millennia
   GST0004AJ0084              6/23/2004       $44,638,918               DoD                16     Schedule

Notes:

          1. For additional information on this task order, please refer to Finding 1 in the body
             of the report.

          2. The scope of this review was limited to cost estimate preparation and use in
             section L of the solicitation. For information related to this review, refer to
             Finding 2 in the body of the report.

          3. Refer to Finding 2 in the body of the report for an analysis of this task order.




   36
        Estimated value is over the term of the entire contract including option years.

                                                      28
                                                                              APPENDIX A

                          SUMMARY OF FEDSIM AUDIT SAMPLE
                                        (Continued)

4. The task order was highlighted in the report as an example of problems with
   contractor invoicing. A subcontractor was a GSA Professional Engineering Schedule
   holder. The PNM stated that the proposed subcontractor rates were in accordance
   with its FSS schedule rates. The subcontractor’s schedule labor categories did not
   correspond to those contained in Millennia. The subcontractor proposed using
   Millennia categories. Eight labor categories were proposed for this task and the
   subcontractor only had seven labor categories on schedule. There was no
   crosswalk in the contracting file between the Millennia labor categories proposed
   and the Professional Engineering Schedule labor categories. The prime contractor
   billed the subcontractor’s direct labor costs “lump sum” instead of breaking the costs
   out by employee and labor category, as the task order demands. For additional
   information, refer to Finding 1 in the body of the report.

5. Task GST0004AJM056 was awarded to Northrop Grumman on April 12, 2004, for
   the United States Department of Homeland Security. The estimated value of this
   task is $337,564,048 and the period of performance is through April 11, 2011.

6. The scope of this review was limited to cost estimate preparation and use in section
   L of the solicitation. For additional information related to this review, refer to Finding
   2 in the body of the report.

7. For additional information on this task order, refer to Finding 1 in the body of the
   report.

8. The scope of this review was limited to cost estimate preparation and use in section
   L of the solicitation. For information related to this review, refer to Finding 2 in the
   body of the report.

9. Our review showed that beginning with invoices for the month ending February 28,
   2005, billings from the Millennia prime contractor for this task order included
   subcontractor labor costs, and these were billed as a lump sum. Without sufficient
   detail supporting subcontractor labor, there is no way to determine if billings are
   excessive or somehow not reasonable when compared to proposed amounts.

   We requested subcontractor-billing detail for these invoices from the project
   manager (PM), and this was provided to us in the form of an Excel file. The project
   manager indicated that he had obtained this file from the prime contractor. Our




                                         29
                                                                              APPENDIX A

                         SUMMARY OF FEDSIM AUDIT SAMPLE
                                       (Continued)

   review of this file indicated that the lump sum subcontractor billings were partially
   comprised of excessive rates.

   The subcontractor on this task is also a Millennia prime contractor. Even though it is
   functioning as a subcontractor on this task - and did not exceed the prime's ceiling
   rates – it is FEDSIM Acquisition Policy that it still adhere to its own ceiling rates as a
   Millennia prime. In fact, the price negotiation memorandum indicated that a
   subcontractor’s labor rates would be verified prior to award to ensure that its rates
   did not exceed their Millennia ceilings.

   Over the seven-month period that we reviewed billings under Task Order
   GST0004AJM061, there were multiple instances of subcontractor employees
   exceeding the Millennia ceiling rates for their respective labor categories. The
   number of employees who exceeded the ceiling rates ranged from eight to 15 a
   month. As a percentage of billed employees this ranges from 13.3 to 22.1 percent.

   We were informed that the contractor had been instructed to provide subcontractor
   information needed for adequate invoice review, and we were provided a copy of an
   email to the contractor, dated October 11, 2005, with the instructions.

10. The task order was awarded to a contractor who held this project under a time and
    materials BPA, a time and materials bridge contract, and was subsequently awarded
    the task under its Millennia contract.

   The bulk of the work described was to “support” some of the client agency’s
   systems. This meant the contractor was expected to have personnel present and
   ready to work when work was needed.

   The cost estimate was prepared by determining the average monthly labor
   requirement (average hours times average rate) for each labor category proposed.
   The average monthly requirement was multiplied by 12 to determine the annual
   requirement. This was an accurate way to construct the cost estimate, especially
   since the new contract was for the same work, only under a Millennia contract rather
   than a blanket purchase agreement. However, the contractor’s proposal was about
   146,000 hours more than the cost estimate. The price negotiation memorandum was
   not clear as to why the Government accepted a cost proposal that contained 20
   percent more hours than the Government cost estimate. For more details on the
   contract awarding for this task, refer to Finding 1 in the body of the report.




                                         30
                                                                             APPENDIX A

                          SUMMARY OF FEDSIM AUDIT SAMPLE
                                       (Continued)

11. The scope of this review was limited to cost estimate preparation and use in section
    L of the solicitation. For information related to this review, see Finding 2 in the body
    of the report.

12. The scope of this review was limited to cost estimate preparation and use in section
    L of the solicitation. For information related to this review, refer to Finding 2 in the
    body of the report.

13. The scope of this review was limited to cost estimate preparation and use in section
    L of the solicitation. For information related to this review, refer to Finding 2 in the
    body of the report.

14. The contractor did not prepare invoicing in accordance with the task order’s terms
    and conditions. Invoice number 7976-7, dated July 20, 2005 and representing
    services performed during the period June 18 through July 15, 2005, did not provide
    adequate detail supporting subcontractor labor costs. The contractor simply billed an
    amount of $1,549,694.23 representing “Subcontractor”. The audit staff met with
    contractor accounting and finance personnel on August 8, 2005; these officials told
    us that the required detail would be provided FEDSIM personnel for this and
    subsequent billings.

   For additional information on this task order, refer to Finding 1 in the body of the
   report.

15. The task order was included in our survey work. We included it in our report because
    of the emphasis given to project management in our review.

   For additional information on this task order, refer to Finding 1 in the body of the
   report.

16. The task order was included in our survey work. We included it in our report because
    of the emphasis given to project management in our review.

   For additional information on this task order, refer to Finding 1 in the body of the
   report.




                                         31
                                                  APPENDIX B
                        REVIEW OF
FEDERAL SYSTEMS INTEGRATION AND MANAGEMENT CENTER (FEDSIM)
                  REPORT A050078/T/5/Z06015

EFFECTS OF PUBLISHING GOVERNMENT COST ESTIMATE INFORMATION


                                              Difference of    Difference of
                                               published        published
               Midpoint of                        cost &           cost &
   Task         Published         Vendor         Vendor           Vendor
  Order        Cost Range        Proposal     Proposal ($)     Proposal (%)
   xxxx        $335,258,000    $333,549,666      $1,708,334        0.50%
   xxxx        $335,258,000    $342,242,623      $6,984,623        2.00%
   xxxx        $335,258,000    $345,415,309    $10,157,309         2.90%
   xxxx          $99,029,000   $100,696,734      $1,667,734        1.70%
  xxxxxx         $42,140,000    $42,544,884        $404,884        1.00%
 (Note 2)
  xxxxxx        $42,140,000     $41,361,184         $778,816      1.90%
  xxxxxx        $29,302,000     $30,776,442       $1,474,442      4.80%
 (Note 2)
  xxxxxx        $29,302,000 $29,563,817             $261,817      0.90%
   xxxx         $31,296,300 $33,755,990           $2,459,690      7.30%
   xxxx         $97,755,000 $94,541,505           $3,213,495      3.40%
   xxxx         $97,755,000 $94,627,540           $3,127,460      3.30%
   xxxx         $97,755,000 $94,599,702           $3,155,298      3.30%
   xxxx        $145,040,000 $143,218,735          $1,821,265      1.30%
   xxxx        $145,040,000 $143,994,901          $1,045,099      0.70%
   xxxx         $20,580,000 $20,928,774             $348,774      1.70%
   xxxx        $341,236,000 $344,365,139          $3,129,139      0.90%
   xxxx        $341,236,000 $343,416,257          $2,180,257      0.60%
   xxxx        $341,236,000 $346,936,834          $5,700,834      1.60%
   xxxx         $78,547,000 $81,469,676           $2,922,676      3.60%
   xxxx         $89,586,700 $86,671,436           $2,915,264      3.40%
   xxxx         $89,586,700 $88,035,086           $1,551,614      1.80%
   xxxx         $18,771,900 $19,321,389             $549,489      2.80%
   xxxx         $88,935,000 $86,493,731           $2,441,269      2.80%
   xxxx         $88,935,000 $88,640,560             $294,440      0.30%
   xxxx         $88,935,000 $87,669,819           $1,265,181      1.40%
   xxxx         $18,218,200 $17,641,658             $576,542      3.30%
   xxxx         $18,218,200 $17,714,071             $504,129      2.80%
   xxxx         $18,218,200 $18,378,640             $160,440      0.90%
            Overall Standard Deviation (Note 1)                   2.80%

                                 32
                                                                 APPENDIX B

 EFFECTS OF PUBLISHING GOVERNMENT COST ESTIMATE INFORMATION
                          (Continued)

      PROPOSED LEVEL OF EFFORT (LOE) WHEN LOE PUBLISHED IN
                       SOLICITATION (IN HOURS)
                                            Difference of
                                           published LOE     Difference of
                                              & Vendor     published LOE &
   Task                         Vendor        Proposal     Vendor Proposal
  Order     Published LOE      Proposal        (hours)            (%)
xxxx                1,012,014     904,452         107,562       10.60%
xxxxxx                380,000     378,540           1,460        0.40%
xxxxxx                380,000     380,000                0       0.00%
xxxxxx                291,400     291,184              216       0.10%
xxxxxx                291,400     291,340               60       0.00%
xxxx                  250,832     262,676          11,844        4.70%
xxxx                  531,432     548,715          17,283        3.30%
xxxx                  531,432     580,560          49,128        9.20%
xxxx                  531,432     531,755              323       0.10%
xxxx                  217,843     239,183          21,340        9.80%
xxxx                  217,843     218,323              480       0.20%
xxxx                  217,843     206,286          11,557        5.30%
          Overall Standard Deviation (Note 1)                    5.61%

      Proposed LOE when LOE is Not Published in Solicitation (Note 3)
                                              Difference of Difference of
                                             published LOE    published
               Government                       & Vendor       LOE &
    Task     Estimated LOE        Vendor        Proposal       Vendor
   Order                        Proposal         (hours)    Proposal (%)
  xxxx                 243,760     296,453           52,453     21.6%
  xxxx               1,180,960   1,361,542          180,582     15.3%
  xxxx                 180,810     196,398           15,588      8.6%
  xxxx               1,388,596   1,394,650            6,054      0.4%
  xxxx               1,388,596   1,757,918          369,322     26.6%
  xxxx               1,388,596   1,558,302          169,706     12.2%
  xxxx                 762,894     839,810           76,916     10.1%
  xxxx               1,020,896   1,484,347          463,451     45.4%
  xxxx               1,020,896   1,409,360          388,464     38.1%
            Overall Standard Deviation (Note 1)                 14.6%




                                 33
                                                                         APPENDIX B

   EFFECTS OF PUBLISHING GOVERNMENT COST ESTIMATE INFORMATION
                            (Continued)
Notes:

  1. Standard deviation is a statistic that communicates how tightly various samples
     are clustered around the mean in a set of data. One standard deviation away
     from the mean in either direction accounts for approximately 68 percent of the
     samples in a group. Two standard deviations away from the mean account for
     roughly 95 percent of the samples and three standard deviations account for
     about 99 percent of the samples. In our example (see chart 1) 95 percent of the
     proposals were within 5.6 percent of the Government estimate’s midpoint and 68
     percent of these proposals were within 2.8 percent of the midpoint.

  2. “M053 A” designates the original solicitation sent to the Millennia contractors for
     this task and the resultant proposals. “M053 B” designates Amendment 2, the
     final solicitation for this task, and the related proposals from the same two
     contractors.

  3. The two charts containing LOE data on the second page of this appendix are
     designed to illustrate the contrast in contractor proposals when information based
     on Government estimates is published in the solicitations versus left unpublished.
     When the Government estimate for LOE was in the solicitation, contractor
     proposals replicated this LOE hour figure closely and ranged roughly from 10
     percent fewer hours than what was published in the solicitation to 10 percent
     more hours.

     When no information regarding LOE was included in the solicitation, the range of
     LOE in contractor proposals expanded significantly. None of the contractor
     proposals contained fewer hours than the Government estimate. Despite the
     large disparity of proposal LOE from the underlying, unpublished independent
     Government estimate, the contractor proposals still met the published cost
     midrange consistently as illustrated in the cost chart on the first page of this
     appendix. This change in characteristics of proposed LOE raised the concern
     that Millennia contractors were unduly focused on developing proposals that met
     the information published in FEDSIM solicitations.




                                      34
                                                                       APPENDIX C
                        REVIEW OF
FEDERAL SYSTEMS INTEGRATION AND MANAGEMENT CENTER (FEDSIM)
                  REPORT A050078/T/5/Z06015

  DESCRIPTION OF RANGES CONTAINED IN FEDSIM SOLICITATIONS


    Task         The range communicated           The range was determined as:
                 in Section L of the              (all were rounded)
                 solicitation was:
    M049         Broken out by individual         The Government estimate
                 labor CLINs.                     calculated for each CLIN as the
                                                  ceiling and 10% less than this as
                                                  the floor.
    M050         For the total of all tasks and   The total Government estimate
                 cost reimbursable items.         as the ceiling and 10% less that
                                                  this as the floor.
    M053A        For the total estimated cost     The total Government estimate
                 of the task order, including     as the ceiling and 10% less that
                 all transition costs, ODCs,      this as the floor.
                 tools, and cost reimbursable
                 items
    M053B        For the total estimated cost     The total Government estimate
                 of the task order, including     as the ceiling and 10% less that
                 all transition costs, ODCs,      this as the floor.
                 tools, and cost reimbursable
                 items
    M055         Broken out by individual         The Government estimate
                 labor CLINs.                     calculated for each CLIN as the
                                                  ceiling and 10% less than this as
                                                  the floor.
    M057         For the total estimated cost     Unable to tell, estimate
                 including all optional tasks     incomplete.
                 and cost reimbursable
                 items.
    M058         For the total estimated cost     The total Government estimate
                 of the including ODCs,           as the ceiling and 10% less that
                 tools and Travel.                this as the floor.




                              35
                                                                  APPENDIX C

DESCRIPTION OF RANGES CONTAINED IN FEDSIM SOLICITATIONS
                       (Continued)

Task                The range communicated           The range was determined
                    in Section L of the              as:
                    solicitation was:                (all were rounded)
M060                For the total estimated cost     No embedded calculations
                    excluding travel, tools, and     in estimate to determine
                    ODCs.                            methodology. Appears to be
                                                     Government estimate for all
                                                     labor CLINs ($19.1 M
                                                     rounded up to $20 M) plus
                                                     10%.
M061                Broken out for labor CLIN        Approx/rounded labor
                    as well as provided for          CLIN and total Government
                    entire task including other      estimate as the ceiling and
                    cost CLINs.                      10% less that this as the
                                                     floor.
M062                For the total estimated cost     Total estimated cost plus
                    of the task order including      10% as the ceiling, total
                    all transition costs, ODCs,      estimated cost less 10% as
                    and travel                       the floor.
M063                For the total estimated cost     The total Government
                    of the task order including      estimate as the ceiling and
                    all transition costs, ODCs,      10% less that this as the
                    tools, and cost reimbursable     floor.
                    items
M064                For the total cost of the task   Estimate does not match,
                    order, including all ODCs,       but embedded formulas
                    tools, and cost reimbursable     indicate that total estimate
                    items.                           is the ceiling and 10% less
                                                     is the floor.
M065                For the total cost of the task   Total estimate is the floor
                    order, including all ODCs,       and 10% more is the
                    tools, and cost reimbursable     ceiling.
                    items.
M066                For the total cost of the task   Estimate does not match,
                    order, including all ODCs,       but embedded formulas
                    tools, and cost reimbursable     indicate that total estimate
                    items.                           is the ceiling and 10% less
                                                     is the floor.




                         36
                                                  APPENDIX D
                        REVIEW OF
FEDERAL SYSTEMS INTEGRATION AND MANAGEMENT CENTER (FEDSIM)
                  REPORT A050078/T/5/Z06015

                  MANAGEMENT RESPONSE




                         37
                      APPENDIX D

MANAGEMENT RESPONSE
     (Continued)




      38
                      APPENDIX D

MANAGEMENT RESPONSE
     (Continued)




      39
                      APPENDIX D

MANAGEMENT RESPONSE
     (Continued)




      40
                      APPENDIX D

MANAGEMENT RESPONSE
     (Continued)




      41
                      APPENDIX D

MANAGEMENT RESPONSE
     (Continued)




      42
                      APPENDIX D

MANAGEMENT RESPONSE
     (Continued)




      43
                      APPENDIX D

MANAGEMENT RESPONSE
     (Continued)




      44
                      APPENDIX D

MANAGEMENT RESPONSE
     (Continued)




      45
                      APPENDIX D

MANAGEMENT RESPONSE
     (Continued)




      46
                      APPENDIX D

MANAGEMENT RESPONSE
     (Continued)




      47
                      APPENDIX D

MANAGEMENT RESPONSE
     (Continued)




      48
                      APPENDIX D

MANAGEMENT RESPONSE
     (Continued)




      49
                      APPENDIX D

MANAGEMENT RESPONSE
     (Continued)




      50
                      APPENDIX D

MANAGEMENT RESPONSE
     (Continued)




      51
                      APPENDIX D

MANAGEMENT RESPONSE
     (Continued)




      52
                      APPENDIX D

MANAGEMENT RESPONSE
     (Continued)




      53
                      APPENDIX D

MANAGEMENT RESPONSE
     (Continued)




      54
                      APPENDIX D

MANAGEMENT RESPONSE
     (Continued)




      55
                      APPENDIX D

MANAGEMENT RESPONSE
     (Continued)




      56
                      APPENDIX D

MANAGEMENT RESPONSE
     (Continued)




      57
                      APPENDIX D

MANAGEMENT RESPONSE
     (Continued)




      58
                      APPENDIX D

MANAGEMENT RESPONSE
     (Continued)




      59
                      APPENDIX D

MANAGEMENT RESPONSE
     (Continued)




      60
                      APPENDIX D

MANAGEMENT RESPONSE
     (Continued)




      61
                      APPENDIX D

MANAGEMENT RESPONSE
     (Continued)




      62
                                                                          APPENDIX E



                           REVIEW OF
  FEDERAL SYSTEMS INTEGRATION AND MANAGEMENT CENTER (FEDSIM)
                      AUDIT REPORT A050078

              AUDITOR’S ANALYSIS OF MANAGEMENT RESPONSE

In his general comments, the Acting Commissioner, Federal Acquisition Service,
stated that our report overall presents a picture of an organization continuing to
improve its service offerings to federal agencies, and highlighted several FEDSIM
initiatives that are best practices. In his detailed comments, he agreed with our finding
on internal controls over the contracting process, but disagreed with our finding on
business practices for providing competition among highly qualified vendors. The
Acting Commissioner also disagreed with a number of our identified deficiencies in
individual task orders. We have made some changes to our report to clarify our
position on certain points, and have modified our recommendation on the second
finding for further clarification. Our overall response to the Acting Commissioner’s
comments are below, followed by our detailed responses to his detailed comments to
our identified deficiencies on specific task orders.

Finding 2 – Business Practices for Providing Competition Among Highly
Qualified Vendors

In our finding on business practices for competition, FEDSIM states that best value is
a procurement technique requiring a cost and technical tradeoff to ensure the
Government awards contracts or task orders to the most advantageous offeror.
FEDSIM also stated that its procurements were in full accordance with the FAR, GSA
policies, and established FEDSIM business practices. FEDSIM states that our report
takes exception to this best value practice and FEDSIM’s practice of identifying price
ranges in its solicitations.

We do not disagree with the use of best value procurements. Procurement history is
replete with instances of the lowest bid being accepted by the Government only to
result in substandard contractor performance and unfulfilled contract requirements.
We recognize that best value procurements include the elements of technical merit as
well as price, where technical merit can be weighted more heavily than price.
Contrary to FEDSIM’s comments, our report does not state that price should be a
more important factor than technical merit. However, price still needs to be considered
as part of the best value decision.

FEDSIM comments that the use of ranges provides important benefits to the
procurement process, allowing for the development of better technical and innovative
solutions. FEDSIM states that the ranges also provide the parameters for what the
agency is authorized and appropriated to spend, and explains that an offeror with no
idea of the budget for a proposed project may have great difficulty in determining the




                                        63
                                                                            APPENDIX E

               AUDITOR’S ANALYSIS OF MANAGEMENT RESPONSE
                                (Continued)

cost of a competitive proposal for a particularly complex project. In our report, we do
not state that the use of ranges is inappropriate, and we state that the use of ranges is
not prohibited by statute or regulation. We have made some edits in our final report to
make this clearer.

Our concern is the basis and approach for FEDSIM’s developing the suggested cost
ranges and estimated level of effort to be included in the solicitation. Our point is that
by narrowly constraining the range to, in the majority of the cases, 10 percent below the
independent government cost estimate, FEDSIM may be missing opportunities for
further cost savings that could accrue if the suggested cost range was wider.

FEDSIM states that vendors can bid outside the range, but our analysis found that only
happened once in 28 cost proposals. We found in 20 of 28 cost proposals reviewed,
proposals typically varied only 6 percent, clustering around the midpoint of the cost
ranges contained in FEDSIM’s solicitations. Twenty–seven (27) of the 28 cost proposals
reviewed were within 5 percent of the midpoint of the cost range contained in
solicitations.

Contrary to FEDSIM’s comments, we do not state in our report that the use of ranges
limits price competition. We have made some edits to our final report language to make
this clearer. Our concern is over the narrowness of the range and the basis for the
range. For an average of procurement of over $100 million, a 10 percent range only
provides for a $10 million difference in proposed prices.

We do not understand FEDSIM’s argument that the ranges used streamline the process
by preventing multiple rounds of negotiations and proposal resubmissions in order to
make the award. As we state in our report, and as FEDSIM agrees, the contractors
under the Millenia contract are world class industry leaders that are premier providers of
IT solutions and are capable of performing any task within the scope of the contract.
Thus, we would expect that any proposals submitted, whether under a suggested cost
range or not, would represent quality bids based on a complete understanding of the
statement of work. Any negotiations that may be necessary would seem to us to be a
natural course of the source selection process that FEDSIM provides for clients to
ensure best value.

FEDSIM states that the ranges are determined based on expertise in estimating value
of the task order based upon the requirements, input from the client experts, expertise
with utilization of the contract vehicle (such as Millenia) and budgetary information. Yet
we found that the cost ranges for projects are typically 10 percent below the
independent government estimate. In oral discussions, FEDSIM officials told us that
this 10 percent is based on historical experience, but they commented to us that there
was no analytical basis for the percentage and perhaps different percentages should be



                                        64
                                                                             APPENDIX E

               AUDITOR’S ANALYSIS OF MANAGEMENT RESPONSE
                                (Continued)

used. In addition, FEDSIM estimators told us that their estimates represented a valid
representation of what the task, as outlined in the statement of work and other


documents, would cost. No one told us that the estimate was to approximate the client
agency’s budget. Considering the average cost of a FEDSIM Millennia project

exceeds $100 million, we would strongly suggest that FEDSIM perform the analysis
needed to determine what would be the appropriate approach for setting suggested cost
ranges, as we state in our reworded recommendation.

FEDSIM’s position regarding publishing narrow cost ranges is further impacted by the
fact that the Millennia contract program is not a highly competitive arena. Our comment
is based on the fact that on average, FEDSIM receives only two bids for each of its
average $100 million Millennia procurements. FEDSIM argued that the fact that all
Millennia contractors receive an opportunity to bid on task orders indicated the
competitive nature of Millennia task orders. We did not comprehend how receiving an
opportunity to bid, but not bidding, made Millennia task orders competitive.

In our reworded recommendation, we also recommend that FEDSIM analyze the basis
and approach for including estimated level of effort in solicitations. In discussions with
FEDSIM officials, they raised the question of whether publishing the estimated level of
effort in the solicitation is advantageous to the Government. In our analysis, we
identified that where level of effort was provided, 68 percent of the labor hour proposals
were within 5.6 percent of the labor hours provided in FEDSIM’s solicitations, whereas
with no level of effort identified in the solicitation, the figure became 14.6 percent. This
would tend to indicate that vendors are constructing their proposals to meet the
estimates contained in the solicitations. We identified particular concerns with one such
procurement. We found that the vendors who responded to this solicitation estimated
the number of hours and skill mix very close to what was provided in the solicitation.
But when the solicitation was amended to remove a 40,000 hour error and incorporate a
significant straight scope reduction, the vendors still met the revised cost and hour
estimates almost exactly, but accomplished this feat by shifting hours into less skilled
labor categories. Since the amended solicitation represented a straight scope reduction,
the same skill set could have been proposed originally, saving the Government $3
million. We question whether, if the estimated level of effort had not been provided and
a wider suggested cost range was provided, whether the vendors would’ve offered more
competitive costs given that they were apparently able to bid lower labor rates in their
revised proposals. FEDSIM refers to our example as an anomaly. We believe it is an
anomaly only from the standpoint that it may be unusual for FEDSIM to need to
materially change the estimated level of effort. But it does demonstrate that at least in
this case, vendors are bidding labor rates based on the estimates included in the
solicitation, and that there may be more innovative approaches and lower prices

                                         65
                                                                            APPENDIX E

               AUDITOR’S ANALYSIS OF MANAGEMENT RESPONSE
                                (Continued)

attainable if such information was not disclosed. We of course do not know how many
other procurements may experience these same concerns.

Finding 1 - Project Management Observations Discussed in Conjunction with Finding 1
(Observations Relating to a Proper Exercise of Discretion)

Re-Competing Two Amended Solicitations. FEDSIM argues that the contracting
officer exercised proper discretion in sending an amended solicitation to only the two (2)
Millennia Contractors who had responded to the original request for offers (task order
xxxxxxxxxxxxx). FEDSIM claims that “The report fails to quote the entire applicable
provision deleting the key statement that the need to re-solicit is discretionary.”

Auditor’s Analysis. The audit report clearly notes that the amended solicitation called
for a xxxx xxxxxxx xxxxxxxx xx xxxxxxxxx xxx x xxxx xxxxxxx xxxxxxxx xx xxxxx xxxxx.

Under FAR 15.206(e), the criteria of adverse effect (so substantial as to exceed what
prospective offerors could have anticipated) was correctly stated in the report and
necessitated a re-competition of the task order among all Millennia contractors.

FEDSIM, under task order xxxxxxxxxxxxx, comments “The report states that the
proposal received in xxxxxxxxxxxxx was materially deficient. This assertion is directly
contradictory to all evidence in the files. The Technical Evaluation Board (TEB) and the
price negotiation memorandum (PNM) both find that the proposal from the vendor was
technically acceptable.”

Auditor’s Analysis. The audit staff relied on the contracting officer’s Price Negotiation
Memorandum, which represented sufficient and compelling evidence that the incumbent
contractor’s proposal was materially deficient. We reaffirm the comments made in our
discussion draft report dated January 31, 2006, which were taken directly from the Price
Negotiation Memorandum.

We fail to see how the technical evaluation score of “average” supports comments in
the Price Negotiation Memorandum like “[The contractor] was told they should provide a
SOW that informed the Government of how they were going to perform the requirement
and not rely on their incumbency as explanation” or “relied on their status as the
incumbent contractor to entirely mitigate the need for transition and did not address the
transition to another contractor” or “[the contractor] was informed that it had not
provided a sufficient PBSOW.”

A Limited Acquisition Plan in (sic) Developed in Accordance with Regulation and
Guidance. FEDSIM said “The report alleges that the Limited Acquisition Plan did not




                                        66
                                                                                 APPENDIX E

                      AUDITOR’S ANALYSIS OF MANAGEMENT RESPONSE
                                       (Continued)

fully delineate the acquisition history.” FEDSIM further declares “it is unclear how the
fact that the Limited Acquisition Plan did not actually name an individual subcontractor
or note how long that subcontractor had been supporting the client on previous efforts
would have any material effect on any acquisition strategy suggested to support this
client” (xxxxxxxxxxxxx).

Auditor’s Analysis. FEDSIM’s comments are incomplete. The report states:

           The limited acquisition plan associated with task order xxxxxxxxxxxxx was
           not satisfactory because it did not fully delineate the acquisition’s history.
           The acquisition plan did not note that the subcontractor currently
           performing the task had provided continuous customer support since 1994
           on the then-current and predecessor contracts.37 To reinforce this point,
           the subcontractor claimed, during technical evaluation, that certain
           contract risks were mitigated because they could provide uninterrupted
           execution following award.

The acquisition history is extremely important in ascertaining the impact prior
acquisitions may have on feasible acquisition alternatives. The subcontractor had
provided continuous support to FEDSIM’s client since 1994. For example, repetitive
acquisitions might indicate that a fixed price task order could be used instead of time
and materials (xxxxxxxxxxxx used time and materials). To underscore the concept’s
importance, the draft report identifies four (4) instances where the FAR, the General
Services Administration Acquisition Manual, or GSA Order OGP 2800.1 require
acquisition background or history.

Proper Exercise of Discretion – Contractors Exercising Appropriate Discretion in
Award and Documentation of Subcontracts and FEDSIM Exercising Appropriate
Review of Invoices. Task order xxxxxxxxxxxx dealt with a review of a subcontractor’s
hourly rates as reflected in invoicing from the prime contractor. The subcontractor had
extensive experience with the client’s procurement and financial management systems
based on their commercial off the shelf software called xxxxxxx. FEDSIM stated:

          “Prior to the award of the FEDSIM task order a decision was made by the client
           to incorporate support for this work into the FEDSIM task” and “As required by
           the FAR FEDSIM does provide a price reasonableness determination at contract
           award and throughout the task order.”

           Auditor’s Analysis. The Price Negotiation Memorandum revealed that the
           subcontractor in question was not approved (or mentioned) by the contracting
           officer at point of award. Our analysis revealed the contracting officer had a


37
     We confirmed the prior contracts with a representative of the xxxxxxxxx.

                                                      67
                                                                         APPENDIX E

            AUDITOR’S ANALYSIS OF MANAGEMENT RESPONSE
                             (Continued)

    chance to review the subcontractor’s pricing for reasonableness (upon the
    addition of fixed price CLIN 13; Financial Applets to the task), this review did not
    occur.

   “In this case neither the Millennia basic contract nor the task order required
    consent to subcontract for this industry partner” and “In accordance with the
    contract and the FAR, FEDSIM also relies on the approved purchasing of
    Millennia vendors when appropriate.”

    Auditor’s Analysis. The task order did not require consent to subcontract. We
    were told that reliance was placed on the prime contractor’s approved purchasing
    system. However, the contracting and project management staff at FEDSIM
    could not answer our questions regarding the reasonableness and source of the
    subcontractor’s hourly rates as shown on the prime contractor’s invoicing.

   “According to the subcontractor, the rates bid on the task order subcontract were
    those that were being charged under the previous FMSS task order (the expired
    contract documented in the file) and were adjusted upward in accordance with
    typical escalation at the time the subcontract was issued.”

    Auditor’s Analysis. We determined to test the prime contractor’s approved
    purchasing system. The prime contractor did not support the hourly rates
    charged by the subcontractor. It offered as support a copy of an expired contract.
    The subcontractor also offered as support an official price justification
    memorandum that supported an indirectly related, smaller, and separately priced
    fixed-price CLIN (CLIN 13; Financial Applets). The work we were testing
    represented the procurement system improvement project under CLIN 1. The
    official price justification provided (relating to another CLIN) stated [The
    subcontractor] “proposed labor categories and rates from their existing contract
    with [the client agency] which was based upon their existing GSA FMSSS (sic)
    schedule contract xxxxxxxxxxxxxx.” We were given no explanation of how these
    documents were related. We were given no documentary evidence showing
    approved escalations for the contract, which expired on September 30, 1999. We
    were also not given the existing client agency contract (or escalations).

    The prime contractor was asked specifically to support its pricing. Based on its
    response, we concluded that it was not invoicing at cost under a cost plus CLIN.

   “In this case, the subcontractor could not possibly be bound by Millennia cost
    ceiling rates because this is a Time and Materials subcontract and the Millennia
    contract does not offer Time and Material ceiling rates.”




                                     68
                                                                         APPENDIX E

            AUDITOR’S ANALYSIS OF MANAGEMENT RESPONSE
                             (Continued)

    Auditor’s Analysis. As stated in the prior section, the prime contractor
    supported the subcontractor’s pricing with a price justification belonging to
    another CLIN stating “A determination was made that a fixed price task order is
    the most appropriate for the majority of the work to be performed by [the
    subcontractor] under this effort. This will enable [the prime contractor] to
    effectively manage and control subcontractor costs during contract performance
    without the risk of cost overrun.” Since the subcontractor was not mentioned in
    the Price Negotiation Memorandum or prime contractor’s proposal, we had little
    idea as to whether the subcontractor was operating on a fixed price, time and
    material, or cost plus fee basis.

   “FEDSIM takes exception to the conclusion that there was a ‘potential
    overcharge of $1.48 million’ for work on the financial task involving the
    Momentum COTS application integration work accomplished under the client
    task order.”

    Auditor’s Analysis. Based on the prime contractor’s response to our tests
    involving its approved purchasing system, the subcontractor was not billing at
    cost under a cost plus CLIN, resulting in the overcharge of $1.48 million. The
    work was not “accomplished” because the subcontractor could not deliver a new
    version of its software product on time.

   “When properly compared to the rates under an appropriate schedule rather than
    Schedule 70 the rates invoiced and accepted appear to be reasonable” and “it is
    not reasonable or appropriate to compare the IT Schedule 70 rates to the
    Millennia subcontractor rates applied.” FEDSIM believes the subcontractor’s
    MOBIS contract is the appropriate comparative vehicle.

    Auditor’s Analysis. The subcontractor’s current FSC Group 70 contract no.
    GS-35F-4797H contains 80 pages dedicated to Momentum products. The client
    agency’s procurement and financial management systems relied on Momentum,
    including the procurement system improvement project. The subcontractor’s
    MOBIS contract no. GS-23F-9785H is a consulting contract and GSA’s
    contracting officer told us that GSA stays away from software under this contract.

   “With respect to this individual subcontract, it is FEDSIM’s intent to ensure proper
    reasonableness, allowability, and allocability of all costs incurred under the task
    order via the DCAA final closeout audit that must be conducted on all cost type
    contracts.”

    Auditor’s Analysis. As stated in the report:




                                     69
                                                                          APPENDIX E

               AUDITOR’S ANALYSIS OF MANAGEMENT RESPONSE
                                (Continued)

      “The principal cause of the task order management problems was excessive
      reliance on outside parties for providing information. For example, FEDSIM
      placed reliance on a contractor’s approved purchasing system instead of taking a
      proactive approach and asking questions about invoiced charges that were easily
      discernible from even a cursory review. In another instance, FEDSIM officials,
      when discussing inadequately prepared invoicing under task order
      GST0004AJM055, stated that a DoD organization would eventually perform a
      contract close-out and the problem would be resolved. It is FEDSIM’s
      responsibility to ensure that there is a reasonable basis for accepting and paying
      invoices.”

Task xxxxxxxxxxxxx – Other Direct Costs for Satellite Services. FEDSIM declared
that “FEDSIM also disputes the basis for this finding” and “The RAPP process for
determining the price reasonableness under this ODC is appropriate.”

Auditor’s Analysis. FEDSIM could not provide information on over $4 million in
satellite services being provided under the task order and referred us to the prime
contractor. The prime contractor’s attempt to document price reasonableness did not
mask the fact that a sole source contract was provided the subcontractor, who has been
providing services to the client agency since 1995. We never encountered a competitive
procurement in our three (3) reviews of actions under this prime contractor’s approved
purchasing system. The Price Negotiation Memorandum addressed the direct labor
rates proposed by the subcontractor, which had no discernible relationship to the
monthly fees for satellite services.

The request for authorization to procure parts and tools (RAPP), provided by the
contractor to FEDSIM, simply refers to an open purchase order with the subcontractor
for satellite services. The RAPP does not justify the price quoted, nor does it indicate
that procurement professionals have reviewed the costs. The RAPP, in this instance,
essentially informs the contracting officer of the contractor’s intent to subcontract.

Individual contractor’s approved purchasing rescinded. FEDSIM declares “Lastly,
FEDSIM questions why the statement that an individual contractor’s approved
purchasing system was rescinded is included in this report.”

Auditor’s Analysis. We were concerned with the quality of the prime contractor’s
approved purchasing system. The prime contractor had provided us with documentation
showing that their approved purchasing system was approved on December 30, 1998.
The administrative contracting officer stated that “These reviews are good for a 3-year
period unless extended by the Administrative Contracting Officer and I see no such
extension in your file.” FAR 44.302(b) stated “Once an initial determination has been
made under paragraph (a) of this section, at least every three years the ACO shall
determine whether a purchasing system review is necessary.”

                                       70
                                                                            APPENDIX E

               AUDITOR’S ANALYSIS OF MANAGEMENT RESPONSE
                                (Continued)

The field work with the ACO occurred long before the issuance of our draft report, dated
May 5, 2006. Aside from fielding a phone call from concerned representatives of the
prime contractor, our records indicate that the prime contractor’s approval was
rescinded on March 13, 2006.

Failure to Provide Criteria upon which Observations are based. In several
instances, FEDSIM asserts that the audit staff makes observations based upon
statements that are not related to any identifiable criteria. An example given was a
contactor’s inability to furnish the auditor with a comprehensive inventory report when it
was due. FEDSIM declared that “FEDSIM is at a loss to understand what could be
corrected or why this observation was included in the report.”

Auditor’s Analysis. The contractor could not produce a Full IT Asset Inventory Report,
which was due July 19, 2005. The report, based on prototypes we were given, was to
cover the client agency’s assets world-wide. FEDSIM’s project manager provided us
with the status of the contractor’s progress at the point of our on-site field work,
occurring in August 2005. The documentation offered stated “At this time the reports
they have don’t even accurately report the data that is in the system or that was
provided.”

FEDSIM noted that there were positive results in the end and that “In award fee period
four, the contractor received a good rating noting that the contractor had adequate
processes in place and accurate reports could be provided from the database with
confidence in their accuracy.” The data given to us by FEDSIM’s project manager
contained comments from award fee periods one, two, and three; award fee period four
results were not provided.

It is important to note that the prime contractor under task order GST0004AJM049 could
not provide additional contract deliverables. The contractor could not produce security
clearances for 51 percent of employees tested. Additionally, the contractor could not
support its invoicing to the Government.

Failure of the Report to Identify Criteria upon which Observations are Based-
Development of Task Objectives. FEDSIM asserts “It is impossible from the
discussion in the report for the reader to understand the standard used by the auditor,
the significance of the issues discussed, and most importantly the audited entity is left
with significant questions as to what possible corrective action they might be able to
take to correct the alleged deficiencies identified in the undisclosed task orders.”

Auditor’s Analysis. We agree that the formulation of criteria for what constitutes well-
defined task order objectives can be problematic. However, we feel the issue is
significant and that corrective action was actually highlighted in our prior discussion on
FEDSIM’s solicitation practices.

                                        71
                                                                            APPENDIX E

               AUDITOR’S ANALYSIS OF MANAGEMENT RESPONSE
                                (Continued)

The report section was aimed at contracts that were more focused on obtaining a work
force than on developing innovative solutions to specific information technology
challenges. As an example, the program management plan for task order number
GST0005AJM066 states that:

       The majority of activities under this TO are day to day operational support
       tasks. The exception is the System Engineering task (Task 3). These
       developmental activities will be conducted according to a schedule and
       will have specific milestones.

The task’s objective is to provide IT support and operations support services necessary
to ensure the operational availability of the client agency’s systems. The tasks were
simply project management, system integration, system engineering, ashore operations,
and global helpdesk operations. It was not necessary for the FEDSIM project manager
to provide day to day technical direction for this sort of day to day operational support.
This task was not atypical of others in our sample.

The solicitation stated that technical merit was more important than cost on this task
order, and cited a cost range of between $17.61 million and $19.57 million and provided
a level of effort estimate of 217,843 hours. The corrective action in this instance would
be to compete this low-level task order on the basis of price among highly skilled
Millennia contract holders.

Failure of the Report to Identify Criteria upon which Observations are Based –
Failure to Produce Deliverables. In reference to task order GST0001AJM029,
FEDSIM asserts “In another case, the report fails to identify criteria that forms the basis
for their observations” and “The report does not document the reference for the alleged
performance metrics or identify them.” FEDSIM also states “The report notes that the
task order did not identify specific items required under this task specifically noting the
alleged absence of metrics or deliverables required for the NMC. FEDSIM finds this
assertion in opposition to the facts….” FEDSIM goes on to declare that the report does
not state that the requirements of the task order were not met or value was not
received, stating that “In this instance it is alleged that merely some metrics pertaining
to a NMC could not be produced due to the inadequacy of a Government furnished
phone system.” FEDSIM claims that there was an “alleged failure to produce reports on
some performance metrics.”

Auditor’s Analysis. We agree that the report, in the interests of brevity, did not identify
the deliverables that were not produced during our on-site field work. They can be found
under task number 3 in paragraphs C.4.3.1.2 (Tier I Performance Metrics) and C.4.3.1.4
(Metrics).




                                        72
                                                                            APPENDIX E

               AUDITOR’S ANALYSIS OF MANAGEMENT RESPONSE
                                (Continued)

The contractor could not produce a Program Metrics Report, required under subtask
C.4.4.6 because there were no metrics to report on.

The FEDSIM project manager corroborated the results of our tests in correspondence
dated September 15, 2005.

FEDSIM adds that the report does not state that the requirements of the task order were
not met or value was not received, stating “In this instance it is alleged that merely some
metrics pertaining to a NMC could not be produced due to the inadequacy of a
Government furnished phone system.”

The requirements of the task order were not completely met because the contractor
could not produce mandated deliverables. The task order had diminished value
because the contractor could not produce the results the client agency wanted.

FEDSIM asserts “In another case, the report fails to identify criteria that forms the basis
for their observations” and “The report does not document the reference for the alleged
performance metrics or identify them.”

The report correctly states that the task order required the deliverables (metrics).
Furthermore, section 4.6 of the task order’s Program Management Plan calls for a
Metrics Program, stating that the creation of metrics information is an objective of the
client agency’s global network services program. Section 4.6 of the task order’s Quality
Plan calls for Quality Metrics, including trouble tickets reported.

FEDSIM added “The report notes that the task order did not identify specific items
required under this task specifically noting the alleged absence of metrics or
deliverables required for the NMC. FEDSIM finds this assertion in opposition to the
facts….” FEDSIM lists, as proof that the task order contains specific deliverables, the
very deliverables that could not be produced upon request.

The report stated “The task order had very few deliverables that identified a specific
output or product.” The audit staff reviewed the task order meticulously for specific
deliverables or output that could be asked for.

Remaining Observations Detailed in Report
1. Unsubstantiated Observation Relating to Contractor Travel

FEDSIM asserts that “In this case each observation is unsubstantiated by the facts” and
“Further, the report does not provide anything more than vague allegations and
unsupported conclusion relating to questionable costs.” The response goes on to say
that “The report states that several of the trips were verbally authorized and properly
documented.” FEDSIM asserts “With respect to general and administrative fees

                                        73
                                                                              APPENDIX E

               AUDITOR’S ANALYSIS OF MANAGEMENT RESPONSE
                                (Continued)

identified in the report, the auditor was notified on multiple occasions and from multiple
sources that the contractor in this case had proposed a xxxxx general and
administrative fee as part of its proposal to the MAS program. This proposal was
accepted and incorporated into the contractor’s MAS contract. This was verified several
times by the awarding contracting officer with the schedule contracting officer.”

Auditor’s Analysis: The documentation provided by the contractor did not establish
that a xxxx percent general and administrative rate, or any general and administrative
rate, was to be applied to travel costs associated with PES schedule contract no.
xxxxxxxxxxxx. On March 23, 2005, in response to our inquiries, we received the
following correspondence from the procurement (GSA schedule) contracting officer’s
representative, which stated in part:

       There is no mention of G&A on travel in contract xxxxxxxxxxxx. Therefore,
       G&A on travel is not acceptable according to the above mentioned
       contract. Finally the contract has not been modified to add G&A on to
       travel at any time.

The procurement contracting officer’s representative also provided us with the following
correspondence on March 20, 2006:

       Contract GS-23F-0061K was not awarded a specific G&A rate. In fact we
       do not allow specific G&A rates to be awarded – we award fully burdened
       rates. Neither the final proposal nor the contract award documents
       mentions G&A.

FEDSIM asserts that “In this case each observation is unsubstantiated by the facts” and
“Further, the report does not provide anything more than vague allegations and
unsupported conclusion relating to questionable costs.” FEDSIM goes on to say “The
audit does not identify any instance of travel….exceeding the ceiling identified in the
contract.”

In regard to travel, the audit report deals primarily with airfare. The report noted several
similar trips to a single destination that were assessed greatly varying airfares:

       Generally, we found almost no evidence to support the contention that much
       travel was “last minute”. A sample of five trips to Dallas/Fort Worth (all out of
       Washington Dulles) found airfares of $277, $396, $867, $1146, and $1734.
       All but one, was purchased at least one month in advance. We noted two
       separate trips to Dallas/Fort Worth that included Sunday travel, a non-stop
       leg, with scheduling at least a month in advance; however, the fares were
       $277 and $1146.



                                         74
                                                                                                   APPENDIX E

                    AUDITOR’S ANALYSIS OF MANAGEMENT RESPONSE
                                     (Continued)

Working with both the FEDSIM and contractor project managers, we were able to
identify the source of the problem as stated in the following correspondence from the
FEDSIM project manager:

         My research showed that a ticket with no restrictions came in at approx $1,000
         even with two week notice. A ticket with restrictions came in at only $300. [The
         contractor] has been made aware of this and have now reduced the threshold for
         approval for ticket purchases.

The project managers further acknowledged that a control problem existed in the
following correspondence:

         [The two project managers] take note of your concern and she has indicated that
         she would advise travelers that per the task order ‘airfare shall be at the
         prevailing rates for commercial airlines at tourist class.’

There was simply no assurance that task order requirements38 for reasonably priced
airfare were being met. The audit correctly identifies the cause of the problem:

         Controls over contractor travel were bypassed. Four of the twelve trips were
         approved after the trip had occurred.39 The [FEDSIM] project manager was
         receiving a trip report and a copy of an approval document40 after the travel
         had occurred. The contractor told us procedures were changed due to the
         high number of last minute travel requests. The task order provides “All
         requests for travel and ODCs must be approved by the FEDSIM Program
         Manager (PM) prior to incurring costs.” It was reiterated in the contractor’s
         Project Management Plan.

The audit staff identified the condition, criteria, and cause, the project managers
acknowledged the problem, and the contactor took action to correct the problem.

FEDSIM alleges “The report states that several of the trips were verbally authorized and
properly documented.” The report simply does not say this.

FEDSIM takes issue with the report comment that we found vague and questionable
costs. Because the controls contained in the task order had been circumvented, our



38
   The task order requires that “Airfare will be reimbursed for actual common carrier fares, which are obtained by
the most reasonable and economical means.”
39
   The back-up documentation for several trips contained the statement “In accordance with AI-ES’s new contract
supporting the JPO, prior ‘written’ approval (email concurrence is fine) is required for travel.”
40
   This invariably took the form of email traffic between the client agency’s approving official and the requestor.

                                                    75
                                                                           APPENDIX E

               AUDITOR’S ANALYSIS OF MANAGEMENT RESPONSE
                                (Continued)

analysis of travel documents was replete with examples of travel costs that were
questionable.

3. Issues Identified Outside the Span of Control and Management of FEDSIM –
Security Clearances

FEDSIM asserts “The report states in a heading that ‘Not adhering to security
procedures led to problems’ is not followed up with any real problems other than
paperwork not being properly maintained by the Cognizant Security Offices’s (sic)
contractor.

Auditor’s Analysis. We assert the report’s conclusion that FEDSIM was not properly
managing its task orders concerning security clearances and that it is the responsibility
of FEDSIM’s contracting officers to ensure that the requirements of its task orders are
fully complied with. The fact that the audit report did not cite instances where security
was compromised should not minimize the importance of ensuring that task orders’
security requirements are complied with.




                                       76
                                                          APPENDIX F

                           REVIEW OF
   FEDERAL SYSTEMS INTEGRATION AND MANAGEMENT CENTER (FEDSIM)
                     REPORT A050078/T/5/Z06015

                                REPORT DISTRIBUTION

                                                              Copies

Commissioner Federal Acquisition Service (Q)                    3

Federal Systems Integration & Mgmt Center (TFM)                 1

Audit Follow-up and Evaluation Branch (BECA)                    1

Assistant Inspector General For Auditing (JA, JAO, JAS)         3

Regional Inspector General for Investigations (JI-W)            1

Office of the Chief Financial Officer (B)                       2




                                            77
